<html>
<title> - DECADES OF TERROR: EXPLORING HUMAN RIGHTS ABUSES IN KASHMIR AND THE DISPUTED TERRITORIES</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
  DECADES OF TERROR: EXPLORING HUMAN RIGHTS ABUSES IN KASHMIR AND THE 
                          DISPUTED TERRITORIES

=======================================================================

                                HEARING

                               before the

               SUBCOMMITTEE ON HUMAN RIGHTS AND WELLNESS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 12, 2004

                               __________

                           Serial No. 108-212

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform

                                  ______

                      U.S. GOVERNMENT PRINTING OFFICE
                             WASHINGTON : 2004

96-410 PDF

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001




                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
DAN BURTON, Indiana                  HENRY A. WAXMAN, California
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
MARK E. SOUDER, Indiana              CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
DOUG OSE, California                 DENNIS J. KUCINICH, Ohio
RON LEWIS, Kentucky                  DANNY K. DAVIS, Illinois
JO ANN DAVIS, Virginia               JOHN F. TIERNEY, Massachusetts
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   DIANE E. WATSON, California
ADAM H. PUTNAM, Florida              STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia          CHRIS VAN HOLLEN, Maryland
JOHN J. DUNCAN, Jr., Tennessee       LINDA T. SANCHEZ, California
NATHAN DEAL, Georgia                 C.A. ``DUTCH'' RUPPERSBERGER, 
CANDICE S. MILLER, Michigan              Maryland
TIM MURPHY, Pennsylvania             ELEANOR HOLMES NORTON, District of 
MICHAEL R. TURNER, Ohio                  Columbia
JOHN R. CARTER, Texas                JIM COOPER, Tennessee
MARSHA BLACKBURN, Tennessee          ------ ------
PATRICK J. TIBERI, Ohio                          ------
KATHERINE HARRIS, Florida            BERNARD SANDERS, Vermont 
                                         (Independent)

                    Melissa Wojciak, Staff Director
       David Marin, Deputy Staff Director/Communications Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
           Phil Barnet, Minority Chief of Staff/Chief Counsel

               Subcommittee on Human Rights and Wellness

                     DAN BURTON, Indiana, Chairman
CHRIS CANNON, Utah                   DIANE E. WATSON, California
CHRISTOPHER SHAYS, Connecticut       BERNARD SANDERS, Vermont 
ILEANA ROS-LEHTINEN, Florida             (Independent)
                                     ELIJAH E. CUMMINGS, Maryland

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
                      Mark Walker, Chief of Staff
                Mindi Walker, Professional Staff Member
                        Danielle Perraut, Clerk
          Richard Butcher, Minority Professional Staff Member



                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 12, 2004.....................................     1
Statement of:
    Inayatullah, Attiya, aid worker; Gurmit Singh Aulakh, 
      president, Council of Khalistan; Ghulam-Nabi Fai, executive 
      director, Kashmiri American Council; Selig Harrison, 
      director of the Asia Program, Center for International 
      Policy; and Bob Giuda, chairman, Americans for Resolution 
      of Kashmir.................................................    52
    Kozak, Michael, Principal Deputy Assistant Secretary, Bureau 
      of Democracy, Human Rights and Labor, U.S. State 
      Department; and Don Camp, Deputy Assistant Secretary, 
      Bureau of South Asian Affairs, U.S. State Department.......     9
    Kumar, T., advocacy director for Asia, Amnesty International-
      USA........................................................    37
Letters, statements, etc., submitted for the record by:
    Ackerman, Hon. Gary L., a Representative in Congress from the 
      State of New York, prepared statement of...................    22
    Aulakh, Gurmit Singh, president, Council of Khalistan, 
      prepared statement of......................................    65
    Burton, Hon. Dan, a Representative in Congress from the State 
      of Indiana, prepared statement of..........................     4
    Crowley, Hon. Joseph, a Representative in Congress from the 
      State of New York, article dated May 12, 2004..............    28
    Fai, Ghulam-Nabi, executive director, Kashmiri American 
      Council, prepared statement of.............................    90
    Giuda, Bob, chairman, Americans for Resolution of Kashmir, 
      prepared statement of......................................   101
    Harrison, Selig, director of the Asia Program, Center for 
      International Policy, prepared statement of................    77
    Inayatullah, Attiya, aid worker, prepared statement of.......    54
    Kozak, Michael, Principal Deputy Assistant Secretary, Bureau 
      of Democracy, Human Rights and Labor, U.S. State 
      Department, prepared statement of..........................    13
    Kumar, T., advocacy director for Asia, Amnesty International-
      USA, prepared statement of.................................    40
    Pallone, Hon. Frank, a Representative in Congress from the 
      State of New Jersey, prepared statement of.................   108
    Ros-Lehtinen, Hon. Ileana, a Representative in Congress from 
      the State of Florida, prepared statement of................   105
    Wilson, Hon. Joe, a Representative in Congress from the State 
      of South Carolina, prepared statement of...................   112


  DECADES OF TERROR: EXPLORING HUMAN RIGHTS ABUSES IN KASHMIR AND THE 
                          DISPUTED TERRITORIES

                              ----------                              


                        WEDNESDAY, MAY 12, 2004

                  House of Representatives,
         Subcommittee on Human Rights and Wellness,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
room 2247, Rayburn House Office Building, Hon. Dan Burton 
(chairman of the subcommittee) presiding.
    Present: Representatives Burton, Cummings, and Watson.
    Also present: Representatives Ackerman, Crowley, Pitts, 
Wilson, Pallone, Pence, Rohrabacher, and Faleomavaega.
    Staff present: Mark Walker, chief of staff; Mindi Walker, 
Brian Fauls, and Dan Getz, professional staff members; Nick 
Mutton, press secretary; Danielle Perraut, clerk; Richard 
Butcher, minority professional staff member; and Cecelia 
Morton, minority office manager.
    Mr. Burton. Good morning. A quorum being present, the 
Subcommittee on Human Rights and Wellness will come to order.
    Given the large number of witnesses we have today, for the 
purposes of today's hearing, I ask unanimous consent that oral 
opening statements by the committee be limited to the chairman 
and ranking minority member. And without objection, so ordered.
    I ask unanimous consent that all Members' and witnesses' 
written and opening statements be included in the record. 
Without objection, so ordered.
    I ask unanimous consent that all articles, exhibits, and 
extraneous or tabular material referred to by Members or 
witnesses be included in the record. Without objection, so 
ordered.
    We have had a great deal of interest from other Members of 
Congress about participating in this hearing. So I ask 
unanimous consent that the following Members and any other 
Member who may attend today's hearing be considered as a member 
of the subcommittee for the purposes of receiving testimony and 
questioning witnesses. Representatives Ackerman, Crowley, 
Pitts, Wilson, Pallone, Pence, Rohrabacher, and Mr. 
Faleomavaega, we will allow you to sit in and question the 
witnesses. Without objection, so ordered.
    We have had numerous amendments and discussions on the 
floor of the House over the years, and Mr. Ackerman, Mr. 
Faleomavaega, and I and others have been involved in those, 
regarding the problems that have arisen in the area known as 
Kashmir and in Punjab, which is in that general region as well. 
There have been, as everybody knows, paramilitary forces up 
there fighting the Indian military because of disagreements 
over the status of Kashmir and Punjab for a long, long time. In 
the late 1940's, 1948, there were resolutions passed by the 
United Nations General Assembly stating that there should be a 
plebiscite on the determination of the future of Kashmir and 
that entire region. Unfortunately, those have never been 
honored. There have been subsequent discussions and resolutions 
and everything else that has taken place, and as a result, 
there has been tremendous problems and heartache for tens and 
hundreds of thousands of people who live in that area.
    The paramilitary forces up there that have been involved in 
the fight for independence and for a plebiscite have gone 
beyond the pale as well. This is something that we have not 
discussed a great deal in the past, but there have been some 
terrible things that have been happening at the hands of the 
paramilitary forces that have been fighting the military of the 
Indian government. Nevertheless, the atrocities that have been 
taking place at the hands of the Indian government, as far as 
we have been able to tell, have been extraordinarily brutal. 
And that is what we are here to find out about today, the 
latest update on that, and to find out what can be done by the 
United States to influence the Indian government and the 
paramilitary forces over there to solve this problem.
    We had a hearing scheduled earlier this year and we 
postponed it because there were going to be elections taking 
place in India, and also because there were pending talks 
between the Pakistani government and the Indian government on 
the issue of Kashmir. There have been two wars fought in that 
area over this very contentious issue, and we did not want to 
impede the process of negotiations between India and Pakistan 
on this issue, and so we postponed our hearing. We were 
requested to postpone it again but we have people who have come 
from half-way around the world to testify here today, and so we 
talked to the State Department and they agreed. We appreciate 
very much you being here to testify and to bring us up to date 
because we did not want to try to send people half-way back 
around the world who had come this far to testify for a second 
time.
    The figures that we have are that there have been 87,678 
people killed by Indian troops, there have been 104,380 houses 
or shops burned by Indian troops, there have been 105,210 
children orphaned, 9,297 women raped or molested, and 21,826 
women widowed. Now those are the figures we get from the people 
who are in positions to know regarding the atrocities 
perpetrated by the Indian military. We also have information 
that there have been some atrocities perpetrated by the 
military, and we condemn them as well. But the preponderance of 
the problem, in the opinion of the Chair, has been because of 
the Indian military up there. Now this is not just the Chair's 
opinion. I would like to read to my colleagues a statement that 
was made by the government of the United States regarding the 
human rights situation in Kashmir. This is a quote from the 
Statement Department's own ``2003 Country Reports on Human 
Rights Practices'' for India:

    The Government generally respected the human rights of its 
citizens; however, numerous serious problems remained. 
Significant human rights abuses included: Extrajudicial 
killings, including faked encounter killings, custodial deaths 
throughout the country, and excessive use of force by security 
forces combating active insurgencies in Jammu and Kashmir and 
several northeastern states; torture and rape by police and 
other agents of the government; poor prison conditions; 
arbitrary arrest and incommunicado detention in Jammu and 
Kashmir and the northeast; continued detention throughout the 
country of thousands arrested under special security 
legislation; lengthy pretrial detention without charge; 
prolonged detention while undergoing trial; occasional limits 
on freedom of the press and freedom of movement; harassment and 
arrest of human rights monitors; extensive societal violence 
against women; legal and societal discrimination against women; 
forced prostitution; child prostitution and female infanticide; 
discrimination against persons with disabilities; serious 
discrimination and violence against indigenous people and 
scheduled castes and tribes; widespread intercaste and communal 
violence; religiously motivated violence against Muslims and 
Christians; widespread exploitation of indentured, bonded, and 
child labor; and trafficking in women and children.
    Accountability remained a serious problem in Jammu and 
Kashmir. Security forces committed thousands of serious human 
rights violations over the course of the 14-year conflict, 
including extra judicial killings, disappearances, and torture. 
Despite this record of abuse, only a few hundred members of the 
security forces have been prosecuted and punished since 1990 
for human rights violations or other crimes. Punishments ranged 
from reduction in rank to imprisonment for up to 10 years.
    Country-wide, there were allegations that military and 
paramilitary forces engaged in abduction, torture, rape, 
arbitrary detention, and the extrajudicial killing of militants 
and noncombatant civilians, particularly in areas of 
insurgencies. Human rights groups alleged that police often 
faked encounters to cover up the torture and subsequent killing 
of both militants and noncombatants.

    We appreciate your being here today. We will allow our 
colleagues to question you and make comments during the 
question and answer period. And if you could give us an update, 
we would really appreciate it.
    [The prepared statement of Hon. Dan Burton follows:]

    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Mr. Burton. Right now, I would like to have you stand and 
be sworn.
    [Witnesses sworn.]
    Mr. Burton. We will start with you, Secretary Kozak. Thank 
you very much for being here, and I hope you will thank the 
Secretary of State for sending you over. We appreciate it very 
much.

    STATEMENTS OF MICHAEL KOZAK, PRINCIPAL DEPUTY ASSISTANT 
 SECRETARY, BUREAU OF DEMOCRACY, HUMAN RIGHTS AND LABOR, U.S. 
  STATE DEPARTMENT; AND DON CAMP, DEPUTY ASSISTANT SECRETARY, 
      BUREAU OF SOUTH ASIAN AFFAIRS, U.S. STATE DEPARTMENT

    Mr. Kozak. Thank you, Mr. Chairman. Mr. Chairman and 
members of the subcommittee, thank you for the opportunity to 
testify on the human rights situation in Kashmir. There is no 
doubt that the Kashmir issue is potentially one of the world's 
most dangerous. Kashmir is the focus of the rift between India 
and Pakistan and has been the flash point for several India-
Pakistan conflicts. The conflict is at the root of the serious 
abuses of human rights that Kashmiri residents have suffered 
for years.
    We have seen the devastating effects that political 
instability and civil strife have had on the lives of innocent 
Kashmiri civilians. From President Bush on down, the United 
States has consistently called for an easing of the tensions 
between India and Pakistan as vital to regional security and 
stability and to an improvement of the human rights situation. 
As the President has said, dialog is the best way to achieve a 
peaceful resolution of the Kashmir issue.
    The United States is encouraged by the positive step taken 
by India and Pakistan in February to resume their dialog after 
a 3-year hiatus. We praise the leaders of India and Pakistan 
for their courage and foresight and hope that the reduction of 
tensions between these two adversaries will represent the 
beginning of an end to the suffering of the Kashmiri people. 
President Musharraf and Prime Minister Vajpayee met in January 
2004 and agreed to initiate a dialog on all issues, including 
Kashmir. Talks moved quickly to the Foreign Secretary level, 
and Foreign Ministers of both countries are scheduled to meet 
in August.
    There is still much to be done, however. It is the policy 
of the United States to do all we can to ensure the success of 
these efforts and to support the confidence building measures. 
These measures include the return of High Commissioners, 
cricket matches between the two national teams, and resumption 
of some transport links. Talks on nuclear-related confidence 
building measures are scheduled to begin later this month. Also 
important in terms of improving the lives of Kashmiri 
civilians, a cease-fire along the Line of Control and the 
Siachen Glacier was put in place in November 2003 that still 
holds. As engagement grows between the two sides, it is U.S. 
policy to encourage all participants in the conflict in Kashmir 
to work to eliminate the human rights abuses that have become 
all too common there.
    Our annual human rights report, which you quoted from, Mr. 
Chairman, documents our concern and gives examples of the 
abuses that take place all too frequently. Let me summarize the 
situation that consists of abuses against innocent civilians 
perpetrated by Kashmiri and foreign militant and terrorist 
groups and of abuses committed by the Indian security forces. 
While the two are interrelated, the actions of one side cannot 
justify abuses by the other. It is our policy to hold all 
parties accountable for their own abuses. Two wrongs do not 
make a right.
    Kashmiri and foreign militant and terrorist groups are 
responsible for execution style killings of civilians, 
including several political leaders and party workers. These 
groups are also responsible for kidnappings, rapes, extortion, 
and acts of random terror that have killed hundreds of 
Kashmiris. Many of the militants are Pakistani and other 
foreign nationals. Militants also regularly execute alleged 
government informants. The Indian Home Ministry says that 
militants killed 808 civilians in 2003, compared with 967 in 
2002, either number is an unacceptable loss of innocent life.
    Kashmiri militant and terrorist groups also target other 
ethnic or religious communities, including numerous execution 
style mass killings of Hindu (Pandit), Sikh, and Buddhist 
villagers in Jammu and Kashmir. Militants also engage in random 
acts of terror, including the use of time-delayed explosives, 
land mines, hand grenades, rockets, and snipers.
    Extremist militants have also attempted to enforce dress 
codes on women. In the Rajouri region of Kashmir, the militant 
groups Jamiat-ul-Mujahideen and Shariati Nefazi Islami ordered 
Muslim women to wear burqas, and three women were killed for 
not obeying these orders in 2003.
    Intimidation by military groups has resulted in restraints 
on press freedom. The local press continued to face pressure 
from militant groups attempting to influence coverage. Kashmiri 
militant groups continue to threaten, through attacks or 
intimidation, journalists and editors, and even forced the 
temporary closing of some publications that were critical of 
their activities. Intimidation by militant groups caused 
significant self-censorship by journalists.
    Members of the Indian Government security forces continued 
to be responsible for extrajudicial killings, custodial deaths, 
excessive use of force, torture, rape, arbitrary arrest, and 
other serious abuses of human rights, despite the fact that the 
Indian Constitution strictly protects human rights.
    According to published accounts and other sources, persons 
detained by security forces were later alleged to have been 
killed in armed encounters, and their bodies, often bearing 
multiple bullet wounds and marks of torture, were returned to 
relatives or otherwise were discovered shortly afterwards.
    It is often difficult to obtain reliable information about 
the condition of people being detained in Jammu and Kashmir 
because many are in detention pursuant to special security 
legislation. This legislation includes the Armed Forces Jammu 
and Kashmir Special Powers Act of 1990, the Public Safety Act, 
and the Armed Forces Special Powers Act of 1958.
    A number of persons ``disappear'' each year in Kashmir. 
Reporting on the number of disappeared varies and underscores 
the difficulty in determining whether persons who have 
disappeared did so while in security force custody or after 
capture by insurgent groups or for reasons unrelated to the 
armed conflict. In 2003, while the Jammu and Kashmir state 
government announced that 3,931 persons remained missing in the 
state since 1990, a nongovernmental agency called the 
Association of Parents of Disappeared Persons placed the number 
at more than 8,000.
    The U.S. Government abhors violence and human rights 
abuses, wherever they take place. We deplore the human rights 
abuses committed by Kashmiri and foreign terrorists as well as 
militant groups and we deplore human rights abuses perpetrated 
by Indian security forces. We have urged the government of 
Pakistan to take steps to end support from its territory to 
both foreign and Kashmiri terrorists and militants. We have 
also urged the government of India to take steps to end abuses 
by its security forces, including prosecution of those 
responsible.
    We are gratified that the Jammu and Kashmir state 
government has taken some steps to hold accountable those in 
the security forces found to be responsible for human rights 
abuses. In June 2003, the government announced that 118 members 
of the security forces had been punished for having committed 
human rights violations. A senior superintendent of police was 
suspended by the Jammu and Kashmir government for allegedly 
falsifying the DNA samples of five civilians killed in fake 
armed encounters in March 2000. A ministerial subcommittee 
headed by the Deputy Chief Minister recommended severe 
punishment for three police officers and two doctors for 
tampering with evidence.
    We are also encouraged by the prominent role that human 
rights issues are playing in the dialog initiated by Deputy 
Prime Minister Advani and the Kashmiri separatist All-Parties 
Hurriyat Conference. The two sides have met twice, in January 
22 and March 27, in the first dialog the government of India 
has initiated with the Hurriyat since the insurgency began in 
Jammu and Kashmir in 1989. The Deputy Prime Minister has 
responded to some concerns raised by leaders of the separatist 
All Parties Hurriyat Conference and other Kashmiri politicians 
and civic leaders on continuing human rights abuses in the 
state. For example, he issued instructions to security forces 
not to commit human rights violations of any kind. At a recent 
press conference, the Deputy Prime Minister noted that, ``The 
security forces must have a human face, with ordinary civilians 
not falling victim to their bullets.''
    We understand that these are only initial steps and that 
many obstacles remain. Today's reality, unfortunately, is that 
numerous human rights abuses persist, as we have documented 
thoroughly in our annual Country Reports. By the way, the 
report can be found on the State Department Web site at 
www.state.gov. Nonetheless, we are confident that continued 
dialog between India and Pakistan, between New Delhi and the 
Kashmiris has the potential to improve human rights in Jammu 
and Kashmir.
    In the meantime, the U.S. Government would welcome greater 
transparency by the Indian government to allow independent 
monitoring of alleged human rights abuses by the security 
forces in Jammu and Kashmir.
    The government of Pakistan has a responsibility as well. We 
continue to urge the government of Pakistan to end any support 
for cross-border infiltration and to terminate support within 
Pakistan for militant groups. Pakistan has pledged that no 
territory under its control will be used to support terrorism 
in any manner. President Musharraf has attempted to influence 
domestic opinion toward developing a ``moderate, stable 
Pakistan at peace with its neighbors.'' He also gave a Kashmir 
Day speech that was more moderate in tone than in past years, 
stating that Pakistan support for Kashmir should be political, 
not military. Infiltration levels appear to be down and we hope 
they will stay down as the snows melt. Pakistan continues its 
efforts to designate terrorist groups and freeze terrorist 
assets. We are working with Pakistan to end infiltration of 
terrorists across the Line of Control, by strengthening 
counter-terrorism capability, and by developing positive 
education and employment opportunities. We continue to urge the 
government of Pakistan to disband militant training camps in 
its territory.
    In closing, Mr. Chairman, let me stress again that the 
United States remains deeply concerned about the human rights 
situation in Kashmir. We are cautiously encouraged by recent 
positive developments in the relationship between Pakistan and 
India while hold promise for real improvement in the human 
rights situation in Kashmir. As our human rights report and our 
policymake clear, the people of Kashmir deserve an opportunity 
to live their lives peacefully and without fear. We call on 
both government security forces and militants to cease 
activities that deny the Kashmiri people this opportunity, 
including an end to the abuse of human rights by all sides in 
the conflict. At the same time, we are encouraging efforts by 
India and Pakistan to defuse tensions and to reach a peaceful 
and lasting resolution of the Kashmir problem, which should 
improve the prospects for reducing and ultimately eliminating 
the continuing human rights abuses there. Thank you, Mr. 
Chairman.
    [The prepared statement of Mr. Kozak follows:]
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Mr. Burton. Thank you, Mr. Kozak.
    Before we go on, the ranking member is here. Do you have a 
comment you would like to make?
    Ms. Watson. Thank you, Mr. Chairman. The events of the past 
have cast a shadow over the efforts to bring about a Kashmir 
settlement between India and Pakistan. But recent events have 
changed the fundamental dynamic that now exists in favor of 
peace in the Kashmir region. While diplomats and leaders will 
continue to attempt to make a peace agreement, peace itself can 
only be made by the Indian and the Pakistani people. And if 
there is any optimism to be found on the issue of Kashmir, it 
is in the talks that are moving forward at the current time. 
The implementation of peace also relies on the willingness of 
the United States and the rest of the world to encourage 
negotiations and mediations without violence.
    So I want to thank Secretary Kozak and the Honorable Don 
Camp of the State Department for their attendance today, and I 
am eager to hear others' testimony as well. Mr. Chairman, I 
yield back the balance of my time.
    Mr. Burton. Thank you. I guess you are here, Mr. Camp, in 
place of Mr. Goode; is that correct?
    Mr. Camp. That is correct.
    Mr. Burton. You are welcome to make a statement if you 
would like.
    Mr. Camp. Thank you, Mr. Chairman. I have no additional 
statement to make. I am prepared to answer questions.
    Mr. Burton. Very good. I think what I will do, since I have 
so many of my colleagues here, is let them start the 
questioning and then I will conclude the questioning of this 
panel. So we will start with my good buddy, Mr. Ackerman. 
Incidently, because we have got three panels, Gary, if we could 
try to keep our questioning to around 5 minutes.
    Mr. Ackerman. Thank you very much, Mr. Chairman. Let me say 
on behalf of all of us who are not members of the committee, to 
both you and the ranking member, we appreciate your generosity 
in allowing us to participate in this important hearing. And I 
want to thank you especially for your ongoing interest in this 
part of the world.
    Is it possible that in a democracy, even a great democracy, 
if it has fighting men and women in uniform in an area where 
they are trying to control terrorism and terrorists, and that 
great army of that great democracy has members amongst them, 
even a minority amongst them, commit atrocities, mayhem, and 
things condemnable by all civil people, is it possible that 
those people are acting alone or is it a government policy to 
which you would attribute that activity?
    Mr. Kozak. You are asking the question in a sort of general 
status?
    Mr. Ackerman. We could start out that way.
    Mr. Kozak. OK. Obviously, both can be true. In many cases 
you have people acting on their own, and in other cases you 
have deliberate policy. I guess my experience has been that 
democracies do not tend to, because they tend to be more open 
societies, do not tend to have ordered government policies to 
commit terrible abuses.
    Mr. Ackerman. The atrocities that have taken place at the 
hands of a few American soldiers in Iraq, is that official U.S. 
policy?
    Mr. Kozak. Of course not.
    Mr. Ackerman. And the atrocities that have taken place in 
the state of Jammu and Kashmir, is that official Indian 
government policy?
    Mr. Kozak. It certainly does not track with the stated 
policy of the Indian government.
    Mr. Camp. And if I may add. The statement that my colleague 
just made referred to members of the security forces are 
responsible for as opposed to a larger pie that India is 
responsible for.
    Mr. Ackerman. That was duly noted. I think it is fair to 
say that a great deal of the violence in Kashmir over the last 
15 years has been perpetuated by militants infiltrating from or 
through Pakistan across the Line of Control. Given repeated 
requests by the U.S. Government and India as well that Pakistan 
halt that type of infiltration, do you think that Pakistan 
bears some of the responsibility for the deaths of so many 
people?
    Mr. Camp. I think it is our view that the people committing 
the acts are responsible, sir. I think our position on 
Pakistan's role is very clear, that we have been very insistent 
with Pakistan that support for any infiltration be ended, 
because there are people in Kashmir who are committing these 
acts who are not from the inside of Kashmir.
    Mr. Ackerman. Where are they from?
    Mr. Camp. They are from many places, but some of them 
certainly are from Pakistan.
    Mr. Ackerman. Is there a particular area that they come 
through? What is their last point of embarkation before they 
arrive in Kashmir?
    Mr. Camp. The Line of Control is a lengthy demarcation 
between the Indian side and the Pakistani side of Kashmir and 
they have certainly come across from the Pakistani side.
    Mr. Ackerman. Is Kashmir doing all that it can to prevent 
that from happening?
    Mr. Camp. I think that we have been pleased that there has 
been a cease-fire along the Line of Control by India and 
Pakistan.
    Mr. Ackerman. I am pleased too, but that was not my 
question. Are the Pakistanis doing everything they can do to 
prevent that from happening?
    Mr. Camp. We think that they are making substantial efforts 
and that those efforts have been borne out by a decrease in 
infiltrations.
    Mr. Ackerman. Has the infiltration continued this spring as 
it has in the past?
    Mr. Camp. I would say the infiltration that we are aware 
of, and this is difficult to verify, is lower than in the past. 
I think some Indian officials as well have been quoted to that 
effect.
    Mr. Ackerman. What is the state of play between us and 
Pakistan? When was the last time that we might have insisted 
that they improve on their record?
    Mr. Camp. I would say that Assistant Secretary Rocca is in 
Pakistan today, is planning to meet or has already met with 
President Musharraf, and I know that this is one of her points 
to make to President Musharraf.
    Mr. Ackerman. We have seen several press reports that 
indicate that the voter turnout in Jammu and Kashmir during the 
recent elections was depressed because of threats from 
militants against the voters. Is that assessment by the press 
shared by the State Department?
    Mr. Camp. Yes, I think that is fair to say. Turnout in the 
elections in 2002 in Kashmir and the most recent one in the 
past month have been lower than in other areas, and we 
attribute that in part to threats by militants, yes.
    Mr. Ackerman. I see the red light on, Mr. Chairman, and I 
do not want to abuse it.
    [The prepared statement of Hon. Gary L. Ackerman follows:]
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Mr. Burton. OK. Mr. Faleomavaega.
    Mr. Faleomavaega. Thank you, Mr. Chairman. I, too, would 
like to express my appreciation to you for your leadership in 
initiating and also calling this hearing in looking into this 
very serious situation in Jammu and Kashmir province. Of 
course, we both share membership in the International Relations 
Committee, so I think we do have a common interest in wanting 
to know and to see how we can best offer some suggestions or 
resolutions to this issue. I think the overall issue here is 
not just with Jammu-Kashmir, obviously, because of the 
historical context during the colonial period in terms of what 
has happened. And the irony of it all is that these people are 
the same people, separated politically but mostly because of 
religious differences.
    I think the basic position of our country is that 
atrocities committed by any group, whether it be by Indian 
security forces or by Kashmirian militants, we oppose that. I 
think the chairman has certainly given some specific numbers in 
terms of those who were affected or tortured, the atrocities 
allegedly committed by Indian forces. But I think whether it be 
100,000 or 200,000 or whatever, I think we certainly do not 
support these kinds of activities. But adding to the complexity 
of the situation, Jammu-Kashmir, as I think most Members 
realize, 65 percent of the population is Muslim. And there the 
situation becomes a little more complex given the fact that 
this portion of the line of separation, and given the fact that 
65 percent of the people living in the Jammu-Kashmir portion, 
which is India, are Muslims. This is what makes it very, very 
difficult to see what kind of solution can be offered for this 
and then with the militants. But added to the more serious 
problem, and I think the concerns that we have in our country 
because of the seriousness of the nuclear dangers posed by 
these two nations; Pakistan and China comes out with a treaty 
relationship, India expresses concern. So there is such a 
mixture which makes this issue not very simple as people may 
think it is.
    I would like to ask Mr. Kozak a question. You mentioned in 
your statement that there are atrocities that have been 
committed by both sides. Was there a State Department report on 
human rights violations not only by the Indian security forces 
but also by Kashmir militants?
    Mr. Kozak. Yes, sir. Our State Department Human Rights 
Report, while it goes by country, when there is a problem of 
insurgency or terrorist activity in the country, it also 
describes the effects of that on the human rights.
    Mr. Faleomavaega. And this was one of the reasons that 
Under Secretary Armitage, a mission I think several months ago, 
in a meeting with Mr. Musharraf a promise was given that no 
more militants coming from Pakistan will cross that Line of 
Control. Because of these camps being along the borderline, it 
gives danger to the safety and the security of those people who 
live in Jammu-Kashmir. But added to the complexity, I might 
ask, who do you consider to be the most active groups among the 
people in Kashmir that I think just makes it a little more 
complicated? Some want to pursue total independence. I know the 
chairman mentioned the issue of a plebiscite. This has gone on 
since 1947 as it was promised by then Prime Minister Nehru that 
a plebiscite would be held. But this has never happened. Of 
course, then conditions were given and because of the overrun 
of portions of Kashmir, it makes it a little more complicated 
than we think it is.
    So I just wanted to ask Mr. Kozak, there has never been any 
point on the part of the Indian government to approve, give any 
sense of approval if there were atrocities made by the Indian 
security forces. This is definitely not the policy of the 
Indian government. Am I correct in this?
    Mr. Kozak. That is a correct statement of their stated 
policy. I think what you will find though, both in my statement 
and in the human rights report, is we think they could be doing 
more in terms of prosecuting those and holding accountable 
those who commit these atrocities.
    Mr. Faleomavaega. And no more is it a policy of the 
Pakistani government that they would encourage militants from 
creating these atrocities in Jammu-Kashmir?
    Mr. Kozak. Correct. That is not their stated policy.
    Mr. Faleomavaega. Thank you, Mr. Chairman. My time is up.
    Mr. Burton. Thank you. Mr. Crowley.
    Mr. Crowley. Thank you. First, let me thank you, Mr. 
Chairman, as well ranking member, for, as Mr. Ackerman said 
before, allowing us to participate in this hearing today. I, 
too, am a member of the International Relations Committee, as I 
think all five of us here are, and we really are appreciative 
of you being open to our sitting in today. Let me also say that 
I want to associate myself with the line of questioning of Mr. 
Ackerman as well. He and I did not speak beforehand, but we had 
similar thoughts on the recent goings on in Iraq in terms of 
how that is certainly not the image of the United States that 
we want to portray as a Nation. The pain that we are feeling 
here as well as around the world is palpable. And it is much 
the same way as acts that take place in other democracies and 
around the world, quite frankly, are also not necessarily the 
face of that nation.
    I just want to for the record, if I could, Mr. Chairman, 
submit an Asian foreign press story that came out today, 
actually less than 6 hours ago. Three Pakistani infiltrators 
were killed by the Indian army in Kashmir while making an 
incursion into what is present day Indian-controlled Kashmir. 
If I can, I would like to submit that for the record.
    Mr. Burton. Without objection.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] 
    
    Mr. Crowley. Incidently, it says that it is the seventh 
incursion this year. Certainly, incursions, I would imagine, 
are down a good deal, but that does not take away the need for 
the Indian government to continue to patrol that border. And 
the tremendous amount of resources that are being expended on 
both sides continue, whether it is one incursion or hundreds of 
incursions.
    If I could ask both gentlemen if they could comment. Do we 
know of any command structure within the Pakistani government 
army service, intelligence service, any connection to those 
entities and terrorist organizations that are training within 
Pakistan today?
    Mr. Camp. Let me answer that. I think we recently issued 
our annual report on global terrorism, and there are a couple 
of terrorist groups designated by us as foreign terrorist 
organizations which are operating in Kashmir, specifically, 
Lashkarytaiba and Jamiat-ul-Mujahideen, and those have been 
banned in Pakistan. But they have historically been based in 
Pakistan. So I would say the connection is certainly there 
between groups based in Pakistan and the insurgent activities 
in Kashmir.
    Mr. Crowley. So let me get a further answer to the 
question. That is, is there any connection that you know of 
government officials, army officials, and intelligence 
officials who are connected to those terrorist organizations?
    Mr. Camp. I presume you are talking about Pakistan.
    Mr. Crowley. Correct.
    Mr. Camp. I would say no, there are no connections, per se. 
There have been relationships in the past I think, but those 
have been in the past.
    Mr. Crowley. None today whatsoever?
    Mr. Camp. Not that I am aware of.
    Mr. Crowley. In terms of redress on issues--and, by the 
way, no country is perfect, I think I made that clear by the 
beginning part of my statement, nor is the United States 
perfect for that matter, we think we are a lot better than 
most, if not all--in India itself, is there an opportunity for 
redress of human rights violations within India? Is there a 
commission that exists? And is that used by people who have 
been wronged or allegedly wronged in the past?
    Mr. Camp. There is a National Human Rights Commission that 
is very active. There is also a Jammu and Kashmir Human Rights 
Commission that has been in existence for at least 10 years and 
has taken actions to investigate abuses committed by the 
security forces and has instructed the government to make 
restitution.
    Mr. Crowley. Does a comparable entity exist within 
Pakistan?
    Mr. Camp. There is definitely a Pakistani Human Rights 
Commission. It is located in Lahore. They issue annual reports. 
They are well-known and quite independent.
    Mr. Crowley. Would you say it is comparable to what is in 
India today?
    Mr. Camp. They probably come out of similar roots. I would 
say they are roughly comparable, yes.
    Mr. Crowley. Would you care to comment?
    Mr. Kozak. I think maybe I would add one exception to that 
though, which is that the authority of the human rights 
commissions, especially the national one in India, is limited 
as regards the security forces. And so when we say in my 
statement that we would like to see greater transparency, that 
is the kind of thing we are referring to, is to have more 
capacity for human rights commissions, or for that matter 
members of the Indian Parliament, others to----
    Mr. Crowley. Is the Pakistani commission more transparent 
than the Indian?
    Mr. Kozak. I do not have a basis----
    Mr. Camp. I do not think so. In fact, the Pakistani 
commission I am sure is also limited in terms of the 
investigations it can conduct with security forces.
    Mr. Crowley. Thank you. Thank you, Mr. Chairman.
    Mr. Burton. Thank you. Ms. Watson.
    Ms. Watson. I was not here when you began your 
presentations. But I want to followup on my colleagues here on 
the right. We have heard, and you can verify this for us, that 
the Kashmiri Hindus and the Sikhs have been all but decimated 
in the Kashmir Valley and the survivors are now living in 
refugee camps scattered all over India. Is that true? Has that 
been verified?
    Mr. Camp. It is true that both Hindu and Sikh communities 
in areas of Kashmir have in fact left because of persecution. 
That is correct.
    Ms. Watson. Then will the Human Rights Commission address 
these problems at the Federal-state level and investigate these 
claims and really seek these people out? And if they are doing 
that, can you address the economy in Jammu and Kashmir? And can 
you also address the current relationships between Indian 
security forces and Jammu and Kashmir residents?
    Mr. Camp. Let me try to address each of those. The economy 
of Jammu and Kashmir has been severely affected by the 
insurgency. There was a thriving tourist industry, for 
instance, before 1989. That was devastated in the early years 
of the insurgency when there was a great deal of violence in 
the urban areas. There is the beginning of a rebirth of the 
tourist industry in Kashmir in Srinagar, the capital, as 
violence has ebbed. But the economy has been severely affected.
    As far as the relationship between the security forces and 
the people of Kashmir, I would say that there are still a great 
number of security forces in Kashmir, they are not always 
viewed as a benign force by the Kashmiris, and therefore there 
is a lot of tension and it is very much a heavily militarized 
city.
    Ms. Watson. What is our role and can you describe, and I am 
addressing this to Secretary Kozak, what is the United States' 
role in this?
    Mr. Kozak. Well, in terms of trying to promote both sides 
to get into a dialog and try to find a solution to the 
underlying conflict, our effort has been to encourage them. So 
we have got two levels of things going; one, as I mentioned, to 
try to promote dialog between India and Pakistan, and then also 
to promote dialog between the Indian government and the 
residents in Kashmir. On the other side, we have also taken the 
steps that were mentioned earlier, of working with the 
Pakistani government to try to cutoff support for the militants 
from Pakistani territory, and then raising with the Indian 
government the need to be more transparent, to end the abuses 
by its security forces, to prosecute those who are responsible 
for those abuses.
    So that is our effort. One is directly aimed at human 
rights, trying to stop the abuses and see that people are 
punished. The other is trying to resolve the underlying 
conflict. But at the end of the day, it is the parties 
themselves who have to make the peace. We cannot do that for 
them.
    Ms. Watson. Am I correct in feeling that there is a bit of 
softening between the two countries, particularly on the 
Pakistani side? How would you describe the current situation?
    Mr. Camp. I would say that the dialog that we have seen has 
been very encouraging. Really since January, when President 
Musharraf and Prime Minister Vajpayee met at the Sark summit in 
Islamabad, the rhetoric has been very positive, the dialog 
process has been proceeding very well. So, yes, there is a lot 
of potential there for an easing of tensions between India and 
Pakistan. And if I may, I would add that another important 
dialog is that being carried on between the Deputy Prime 
Minister of India and the All-Parties Hurriyat Conference of 
Kashmir. That is an attempt to basically establish a dialog 
between Delhi and separatist Kashmiris, also a positive 
gesture.
    Ms. Watson. Are we in the United States applying any aid to 
Kashmir?
    Mr. Camp. We do not have an aid program in Kashmir.
    Ms. Watson. Thank you, Mr. Chairman. I yield back.
    Mr. Burton. Thank you. Do you have any questions right now, 
or would you like to make a brief statement real quick?
    Mr. Pitts. Yes, thank you, Mr. Chairman. Although I am not 
a Member of the committee, I appreciate----
    Mr. Burton. No, we have waived the rules here so that all 
of our colleagues can participate.
    Mr. Pitts. I thank you for the hearing on looking into the 
human rights violations in Kashmir. I have travelled to the 
region a number of times, met with the leadership in both 
Pakistan and Kashmir and India, and was there in January during 
the successful Sark summit and very pleased with the leadership 
of Prime Minister Vajpayee and President Musharraf in the 
bilateral and in the peace talks.
    I also had the same question the gentlelady asked about do 
we do anything there. And in checking, I found out that, 
although there are some 26,000 refugees on the Pakistan side, 
they are not considered refugees, they are IDPs, Internally 
Displaced People, and the U.N. does not help IDPs. The United 
States takes our cue from the U.N. and we do not help IDPs. So 
there is not a lot of aid, or hardly any really, going to those 
people who are suffering tremendously.
    The cease-fire that occurred on November 26th was very 
welcomed. I met with a number of the refugees, what we would 
call refugees, in their camps there and have tried to work with 
humanitarian efforts with some of the groups. But for the first 
time there seemed to be a little bit of hope because of the 
peace dialog. And then the residents were very grateful for the 
shelling to stop. They wanted the troops on both sides to 
withdraw from the Line of Control a little bit further, 
continue the confidence-building like the peace exchanges, 
opening the bus route, opening the air line, which occurred 
about a week before, and then the cricket matches and other 
exchanges.
    I think one of the things that I looked into with human 
rights abuse was using rape as a method of terror. Everybody it 
seems could agree that those types of abuses on both sides 
should stop. And we can also focus on things like educating 
children. The schools that I saw there in Kashmir, they had 
absolutely nothing. There ought to be some mechanism of getting 
some aid to these poor, suffering people in Kashmir.
    I thank the chairman for having the hearing on the 
violations of human rights in Kashmir today. Thank you.
    Mr. Burton. Let me start my comments and questions by 
saying that the definition of atrocities I guess is in the eye 
of the beholder. From my perspective, what I saw in the prisons 
in Iraq was horrible but it was not an atrocity. An atrocity to 
me is cutting somebody's head off in public, or flying an 
airplane into the World Trade Center and killing 3,000 people, 
or bombing an embassy and killing people, deliberately going 
after torture and killing people. Taking pictures of naked 
prisoners is a horrible thing and those people should be held 
accountable, and they will be held accountable. But that does 
not compare to what I consider to be an atrocity. The people 
who commit an atrocity like what we saw this last couple of 
days, by beheading an innocent American citizen who just 
happened to be trying to make a few dollars over there, those 
people should be held accountable, and I mean held accountable 
to the full extent of the law and that includes the death 
penalty.
    Now let me talk about what is going on in India from my 
perspective. There have been, no question, horrible acts by the 
militants. And I understand the State Department tries to keep 
a balance here. You guys want to make sure that we do not upset 
the apple cart as far as the peace talks are concerned, and I 
think that is great because they now have a roadmap to peace 
and they have a 6-month program. I think it would be great if 
India and Pakistan, who are both nuclear powers, would move 
toward peace over Kashmir where we have had two wars and reach 
an agreement that would be acceptable to them and to the people 
of Kashmir, and just stop all this stuff. But they have in 
Punjab and Kashmir over a million troops, about a million and a 
half troops up there imposing marshal law. There are gang 
rapes, and there are all kinds of atrocities taking place by 
the Indian troops, and, as I said, some from the militants as 
well, nobody knows how many.
    But the thing is India is a ``democracy'' like ours. That 
is what it is supposed to be. It is supposed to be the biggest 
democracy in the world. And of all these figures that I quoted, 
there has been almost 90,000 people killed by Indian troops, 
104,000 shops burned, 105,000 children orphaned, almost 9,300 
women raped and molested, and 22,000 women widowed. It seems to 
me that in a democracy--I mean, in our democracy right now, 
those people in Iraq are going to be prosecuted for pictures, 
for pictures. These are atrocities involving killings, rapes, 
horrible things, torture, and the Indian security forces have 
been punished by the Indian government to the extent from a 
slap on the hands to 10 years in prison, that is the maximum 
sentence we know of. A slap on the hands to 10 years. And there 
have only been 118 people that have been taken to task for 
that.
    And so the Indian government, and the militants, there is 
no court of law for them, there ought to be some way to deal 
with the ones that are imposing these kinds of tortures on 
people on that side as well, but the Indian government, which 
is supposed to be the world's largest democracy, like us, ought 
to be holding these people accountable. If we can hold people 
accountable for taking pictures of naked prisons, we sure as 
the dickens can say to the Indian government that for raping, 
gang raping, torturing, murdering people that they ought to 
hold those people accountable. And I hope the Indian government 
is watching. That is something that could go a long way toward 
making your reputation in the world be enhanced dramatically, 
because people ought to be brought to justice for doing such 
things.
    Now what are we doing from a public relations standpoint 
through the State Department, what are we doing besides trying 
to get the two parties to the table to negotiate? What are we 
doing to try to get India and Pakistan, what we are doing to 
try to get them to move toward what I was just talking about, 
is holding people accountable for these atrocities. Because 
once you make a soldier accountable for some act of rape or 
torture, it sends a message to the entire force. If all you 
give is a slap on the hands to somebody for raping a woman or 
torturing, if that is all you give them, then what does that 
say to the rest of the force? It says, hey, all you are going 
to get is a slap on the hands or maybe a year in prison, so do 
what you want to do. So what are we doing to encourage or to 
insist, if you will, that the Indian government hold these 
people accountable?
    Mr. Kozak. I think it is on several levels, Mr. Chairman, 
and I must say, I cannot agree with you more that this is the 
kind of message that needs to be sent to any kind of force, 
that these kinds of practices are just not acceptable, and the 
way you send that message is by holding people accountable. Of 
course, one of the things we do is try to bring this out in the 
open with our Annual Human Rights Report. That is on our Web 
site, it gets presented, it gets covered in the press in India 
and elsewhere. I think that effort on our part and by several 
of the human rights NGO's, as you mentioned as well, hopefully 
that stirs up some debate within India so that the democratic 
process causes people to say we do not want to be seen this 
way.
    Second, we have, and Don can give you more detail, but when 
we have conversations at high levels with Indian officials this 
subject does get raised with the same kind of argumentation 
that you just gave, that if they want to improve their image, 
they need to clean this kind of stuff up.
    We have seen some progress in terms of some of the worst 
effects that you mentioned there of burning down houses and so 
on. There was a lot of that going on in the early 1990's and 
the embassy reports that has essentially ceased. But that does 
not mean that all of the abuses have ceased. We still have 
torture and killing of people in custody and these faked 
encounters and all the other stuff going on. So our bottom line 
is, yes, they need to be doing more to bring those people who 
are doing these things to justice and send a message.
    Mr. Burton. Over the years, and we have had debates on the 
floor, Mr. Ackerman and I, in particular, and others, about 
this problem. But I have seen pictures that have been brought 
to me by friends of mine from both Kashmir and Punjab and they 
have shown me hooks where people are held up and beaten, held 
upside down and tortured with cattle prods and that sort of 
thing. And they have shown me pictures of people that have been 
taken out of the canals and rivers up in Kashmir who have had 
their hands tied behind them and tortured and thrown into the 
rivers and streams alive to drown. They have shown me reports 
of wedding parties where the bride, before she even got to her 
wedding night, the bus was stopped and troops gang raped this 
women, thus ruining their lives.
    These sorts of things are the things that I hope you will 
convey to the Indian government as prosecutable offenses that 
should be carried out to the maximum. If they would do that, 
their image to me and a lot of my colleagues would change 
dramatically. There has been a division in the House between 
people who are ``pro India'' and ``anti-India.'' That could 
change dramatically if we saw some justice meted out on these 
kinds of offenses. So I hope that you and Secretary Powell and 
others will convey that sentiment. And if any of the Indian 
television is watching here today, I hope that will be conveyed 
to the Indian government as well. Because you could go a long 
way toward mending any differences that there may be between 
the Congress of the United States and the Indian government if 
they would just do that.
    The other thing I want to talk about real quickly, and then 
I will let you folks go and we will move to the next panel, is 
the plebiscites that were promised by Nehru and others back in 
the 1940's. Those resolutions by the United Nations General 
Assembly are still in force, they have never been rescinded. 
What has been done or what is being done by the State 
Department to urge the Indian government to let the people of 
Jammu and Kashmir vote, have a referendum on whether or not 
they want to be a part of Pakistan, a part of India, or 
independent? What are we doing on that?
    Mr. Camp. Mr. Chairman, our position as a government has 
been consistent for many years, which is that this issue is one 
that needs to be decided between India and Pakistan, taking 
into account the wishes of the Kashmiri people. We are 
encouraging the governments of both countries to look forward 
and come up with a solution. That is where we think the dialog 
is the best possible----
    Mr. Burton. This roadmap to peace you are talking about?
    Mr. Camp. The roadmap to peace. I think that there have 
been other things that have happened in the past 50 years too, 
all of them history, including the Simla Agreement in 1972 in 
which the two countries agreed to resolve this bilaterally. So, 
there is a lot of history there. We think they should go 
forward.
    Mr. Burton. My last question is, are we a participant at 
the conference table at all? Are we involved at all?
    Mr. Kozak. No.
    Mr. Burton. Well, when we talk to the parties that are 
members of the conference I hope we will extend to them our 
concern about allowing Jammu and Kashmir and the people that 
live up there to have a strong voice in the outcome, as has 
been required by the U.N. resolutions that were passed in the 
early 1940's.
    I think that is all we have for this panel. Did you have a 
few questions that you would like to ask real quickly?
    Mr. Pallone. Yes, Mr. Chairman.
    Mr. Burton. OK. We will let my colleague ask a question and 
then we will excuse you.
    Mr. Pallone. Let me thank the chairman for not only giving 
me an opportunity but also doing it at the last minute like 
this. I really apologize for just coming in.
    I did ask some of my colleagues whether the issue of the 
Kashmiri Pandits had been raised, and I understand that the 
ranking member here asked about it. But I wanted to ask a 
question about it. I think you know that the Pandits have been 
living in the Kashmir Valley for 5,000 years and they have 
suffered a long history of attacks through the 1990's, leading 
to mass migration from the Kashmir Valley. They are really a 
very small minority right now. But I wanted to ask, in the 
annual State Department Report on Human Rights, it lists the 
Kashmiri Pandits as a minority community victimized by gross 
human rights abuses who were forced to flee under the most 
trying circumstances. And I just wanted to know why the human 
rights abuses against this community, the Pandits, have not 
been prioritized? And is it not true that the Pandits have been 
all but decimated from the Kashmir Valley and the survivors are 
now living in refugee camps or scattered all over India? If you 
would just comment on that, because I do not know that it has 
received any attention here today and it is something that 
concerns me a great deal.
    Mr. Camp. It certainly is an issue that concerns us as 
well, Congressman. I would say that the Indian government has 
also been very focused on the persecution of the minority 
communities, not just the Pandits but Sikhs and others in 
Kashmir. And I think that we have the full support of the 
Indian government in making the Pandits' lives as good as 
possible in light of what they have suffered. Kashmir has 
traditionally been a multi-ethnic, multi-religious society. And 
the expulsion of groups like this are is a tragedy.
    Mr. Pallone. So what is happening now to allow them to come 
back? I mean, is their situation deteriorating further? Is it 
likely that there are going to be more leaving the valley? I 
just want you to give a little on their status at this point if 
you could.
    Mr. Camp. I would say the answer to that also lies in an 
end to the conflict in a negotiated end and a return to peace 
in the valley. That is the best potential to see communities 
like the Pandits and the Sikhs returning, in my judgment.
    Mr. Pallone. OK. All right. Thank you, Mr. Chairman.
    Mr. Burton. Thank you very much.
    Mr. Ackerman. Mr. Chairman, if I may just for a moment 
comment on something that you did.
    Mr. Burton. Sure.
    Mr. Ackerman. You mentioned that if the Indian government 
would be doing a better job in helping to control the actions 
of some of the soldiers with regard to atrocities that have 
taken place that there would be those in this Congress who 
would take a renewed look at their view toward India. I want to 
say that I appreciate your saying that. I, for one, would like 
to say that I would like to see the Indian government do a 
better job, as we would like to see all governments do a better 
job in cases where soldiers commit these kinds of atrocities. 
As far as atrocities, I am not sure that we agree on the 
definition of atrocities and the level of the bar. Webster 
defines ``atrocity,'' and I just had somebody look it up, among 
other things, as ``an extremely cruel deed.'' If I were writing 
the dictionary, I would say an atrocity is something terrible 
that happens to you or a member of your family or someone you 
know or love. I do not think that the crime we are going to be 
charging people with in Iraq is going to be that of taking 
pictures. And I think that the world is not offended by the 
taking of the pictures, but it is the deed that people are 
offended by, whether it takes place in Iraq at the hands of 
Americans or in Jammu and Kashmir at the hands of soldiers who 
are not properly supervised or militants that cross the border 
from other places.
    Mr. Burton. Well, I do not want to get into a big dialog on 
this. But, obviously, the people in Iraq who took those 
pictures and did those deeds in the prison will be prosecuted. 
There is going to be a court marshal, I think it is going to 
take place almost immediately for the first person. It will be 
held in a public forum and the media around the world will see 
what I consider to be the greatest democracy in the world, the 
United States, handling people who do that sort of thing. And 
at the same time we see a beheading of an American who was an 
innocent over there. As I said at the beginning of my remarks, 
atrocity I guess is in the eye of the beholder. But to me, that 
is an atrocity. And what we saw in the prison was a terrible 
deed that should not have been done, but they should be 
prosecuted. And I hope that is an example to countries like 
India and around the world that even something like taking 
pictures and beating a prisoner in jail, which is bad and 
should be prosecuted, that we consider that something that 
should be dealt with severely, and we hope they will take that 
to heart when they are dealing with troops who have done 
something that we consider to be immeasurably worse.
    Mr. Ackerman. You have a unanimous verdict on that.
    Mr. Burton. Yes. Thank you.
    With that, thank you gentlemen. And extend my thanks to 
Secretary Powell and to Mr. Armitage for having you folks come 
over.
    Mr. Kozak. We will, indeed. Thank you, sir.
    Mr. Burton. Our next panel is Mr. Kumar, who is the 
Advocacy Director for Asia for Amnesty International.
    OK, Mr. Kumar. Thank you very much for being here. Do you 
have an opening statement, sir?
    Mr. Kumar. Yes, sir.
    Mr. Burton. I always swear in our witnesses. Would you 
please stand and be sworn.
    [Witness sworn.]

  STATEMENT OF T. KUMAR, ADVOCACY DIRECTOR FOR ASIA, AMNESTY 
                       INTERNATIONAL-USA

    Mr. Kumar. Thank you, Mr. Chairman, for inviting Amnesty 
International to testify at this important hearing. Why we say 
this is important is this: The plight of Kashmiri people for 
the last 50 years has been marred by violence and abuse. We 
have documented numerous abuses by all parties to the 
conflict--all parties namely, Indian government, armed 
opposition groups, and Pakistani government. So I go one by one 
about what type of abuses we have documented by these three 
groups.
    Before I go into detail, I would like to say that Amnesty 
International as an organization does not take a position about 
the status of Kashmir, whether it is part of India, part of 
Pakistan, or whether it is an independent territory. So our 
facility is based purely on human rights. We have no political 
angle to it; that is not our job. Also, we want to be very 
critical and we want to give some comments about what can be 
done to improve the situation there.
    First of all, because of the conflict, the only losers are 
the people of Kashmir. No matter what background they are. They 
could be young, they could be old, they could be women, they 
could be Muslims, Hindus, Buddhists, Sikhs, you name it, they 
are the ones who lost out because of the abuses that are 
happening there. So there is no discrimination in that sense 
from our point of view.
    First going to the Indian side. In Indian side, there are 
two main players that are involved in abusing the people of 
Kashmir. The first is the government of India. The government 
of India's armed forces as well as the police are involved in 
massive human rights abuses. I want to emphasize the term 
``massive.'' Thousands disappeared. The families did not know 
what happened to them, still looking for their loved ones. 
Thousands were imprisoned and are still imprisoned. Quite a few 
people are executed, and thousands were tortured and raped. So 
we have documented all these things, including rape, which is 
very unique of certain issues there. But also we have 
documented Indian shelling across the border to Pakistan, the 
civilians on the other side who are not military targets yet 
get affected.
    India also is using their special laws to Kashmir that 
basically gives a green light to the military and to the police 
to do whatever they want and get away with the abuses. That is 
the sad reality. I noticed you mentioned about impunity. They 
should be brought to justice. The issue there is the laws. The 
laws give them basic protection. And the other side of the law 
is the Indian National Human Rights Commission does not have 
any authority to investigate abuses that are happening in 
Kashmir which are committed by the armed forces. That may be a 
first step whereby Congress, the U.S. administration can 
pressure the Indian government to expand the mandate of the 
National Human Rights Commission to investigate abuses in 
Kashmir. The Indian National Human Rights Commission is having 
a pretty reasonable record, pretty independent, pretty critical 
of the government, especially on the Gudjurat issue. So that we 
consider a test under the first steps.
    The other one is the political will from the 
administration. There are two administrations that we are 
talking about when it comes to Kashmir: One is the state 
administration, the other is the Federal administration. The 
state administration, they have a new minister. About 2 years 
ago there was new chief minister who came to power and he 
promised that he will prosecute and disband certain notorious 
police and military forces. But nothing happened. It may be due 
to different pressures that person is receiving. So the reality 
is that we are talking about two different entities. One is the 
Federal Government dealing with Jammu and Kashmir from a 
different lens, and the state government which is looking from 
a local perspective.
    Also as I mentioned, thousands of political persons are 
still in prison. And even peaceful dissent is being curtailed 
by the Indian government. For example, about 2 months ago there 
was a demonstration by the families of the disappeared. The 
Organization of the Disappeared just was demonstrating asking 
that the issue be brought to the U.N. attention of all their 
disappearances. But unfortunately, the demonstrators were 
beaten up, some were arrested, and some were abused. So even 
the peaceful dissent is not being allowed at this present time 
in Kashmir. That is something that can be pressurized by the 
State Department and by the Congress, to allow the peaceful 
aspect to it. Leave the armed struggle alone. Let the people 
come out and express their feelings.
    Coming quickly to the armed opposition groups. There are 
numerous armed opposition groups in Kashmir. Some want total 
independence, some want to be part of Pakistan, and there may 
be other reasons they are there. They are also committing 
massive human rights abuses. Torture, killing, extra judicially 
executing people, and rape. That is something that has to be 
brought up publicly to basically humiliate these armed groups, 
that you are involved in abuses which you are supposed to be 
fighting against for which are champions. If you claim that, 
that is a reality. The other issue is that they also go and 
harass the families. When they demand food and they are 
refused, the families get harassed, they get abused, and 
sometimes they get killed. They need protection when they are 
running away from the Indian intelligence and the security 
forces. When the civilians are reluctant, again, they get 
abused by these armed opposition groups.
    The other issue that armed opposition groups are involved 
in is attacking the minorities; in this case, Hindu minorities. 
They are called Pandits, which was brought up earlier. About 10 
years ago there were massive anti-Pandit activities by some 
groups, not Kashmiri people, we are talking about some armed 
groups. About 150,000 Pandits fled Kashmir really, and most of 
them are living in Jammu and in refugee camps. They are the 
internally displaced. But it is sad, their plight is basically 
not in the forefront when you discuss Kashmir at this moment.
    The other issue is kidnapping and torture by the armed 
opposition groups. The last one that I would mention about 
armed opposition groups is about attacking people, groups, 
isolated individuals who are advocating a political solution to 
the Kashmiri conflict. They assassinated them, tortured them, 
and threatened them. The latest development was the election. 
You mentioned that you postponed the hearing because of 
elections. During elections in Jammu and Kashmir, especially in 
Kashmir, the armed opposition groups basically challenged and 
threatened anyone who participated in the elections and they 
informed them they face dire consequences. They attacked 
rallies and they killed people. Scores of people have been 
abused and killed because they were participating in the 
democratic process there.
    Quickly coming over to Pakistan. We purposely wanted to 
look at Pakistan because you asked us to testify about Kashmir. 
So there is one part, at least one-third or whatever the 
percent is under the control of Pakistan. There, even though 
you do not see the abuses that are mentioned, there are four 
main issues that are of concern to us.
    First, is the oath that the Pakistani government basically 
forced the state legislators of the Kashmiri part of Pakistan 
to take. Basically, committing them that Jammu and Kashmir will 
be part of Pakistan. That is may be a political question, but 
from the human rights point of view, this has been used to 
intimidate the legislators there.
    The other issue is peaceful dissent. Basically, peaceful 
dissent is being curtailed when it hurts the Jammu and Kashmir 
status debate; for example, independence of Kashmir or part of 
India debate.
    And the third one, obviously, is the shelling. Pakistani 
troops are also involved in shelling across the border, despite 
the fact it may hit the civilians on the other side.
    So in closing, Mr. Chairman, I would like to tell you that 
the losers in the whole battle between these three groups are 
the people of Kashmir. So we are extremely pleased that you are 
holding this hearing, even after a small delay, that at least 
the suffering of the Kashmiri people is being brought to the 
attention of the Congress and the world at large. We hope that 
this momentum will bring some settlement to the suffering of 
Kashmiris. We also believe that before you take a political 
solution, human rights abuses should reduce. You cannot have a 
political solution when massive human rights abuses, women get 
raped, people get killed, are happening. Thank you very much 
for inviting me.
    [The prepared statement of Mr. Kumar follows:]
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Mr. Burton. Thank you, Mr. Kumar, for coming to testify. 
First of all, when they had the election and we deferred the 
hearing, we did it because we were told that this might lead 
ultimately to a peaceful solution, which we have all waited for 
for so long. You said that people were intimidated when they 
tried to go to the polls there in Jammu and Kashmir. Do you 
have any idea on what the percentage was of people that were 
turned away or afraid to vote?
    Mr. Kumar. It is not only the election day events that we 
are talking about, we are talking about pre-election rallies 
and activities. They have attacked rallies, they have stopped 
people from going to polls on the polling day. But we are 
talking about the pre-election, people were killed.
    Mr. Burton. And people were killed.
    Mr. Kumar. We do not know the exact--it just ended about 2 
days ago.
    Mr. Burton. Do you know what the percentage was that 
ultimately did vote?
    Mr. Kumar. Not for sure. Maybe 50 percent. I do not want to 
comment.
    Mr. Burton. That would just be a guess?
    Mr. Kumar. Yes, it is a guess.
    Mr. Burton. But it was way below what they would 
anticipate?
    Mr. Kumar. No. Overall, Indian rate is around 55 or 60 
percent.
    Mr. Burton. How about up in the Jammu and Kashmir area?
    Mr. Kumar. That I do not know.
    Mr. Burton. But there was a lot of intimidation?
    Mr. Kumar. Yes. In Kashmir, in particular, that is the only 
place, with the exception of northeast of India and certain 
pockets in other parts of India. There was a call by a group of 
armed men who are pretty strong basically informing the 
candidates and the people at large that they will face the 
consequences if you go to the polls.
    Mr. Burton. Tell us real quickly, and I am familiar with 
this, but for the edification of the people in the room and my 
colleagues, tell us about the laws that protect soldiers, 
military personnel who commit torture and rape and that sort of 
thing.
    Mr. Kumar. Basically, they have a special powers act in 
Kashmir which basically gives blanket immunity to the armed 
soldiers, the military from being brought to justice, with the 
exception of Home Ministry, that is Interior Ministry, giving 
green light to them to be brought then to justice, which is not 
forthcoming; that is a given. It is not forthcoming because the 
Home Ministry is very reluctant to give permission to bring any 
military person there to justice. Their argument may be that it 
is national security. So our objective is at least allow the 
National Human Rights Commission, they are so nationalist they 
do not allow outsiders, why do you not allow your own 
institution to investigate. So these are the laws. There are 
three separate laws.
    Mr. Burton. Yes. Now if a group of soldiers gang rape a 
woman, or if soldiers hang a man up on one of these hooks and 
torture him, or tie his hands behind him and use cattle prods 
and then throw him in a river and drown him, what are the 
chances of prosecution with these current laws?
    Mr. Kumar. It is case by case we have to analyze. If it 
brings lot of public outcry, not only in Kashmir but also 
outside, then there may be people who--people have been brought 
to justice. But that is far below what the real percentage of 
abuses that have taken place. We are talking about from 1980 
onwards. The whole human rights abuses intensified after the 
armed struggle started. I mean, you can argue whether the 
chicken or egg which one is responsible for the abuses. But the 
armed struggle started in 1979-80, then retaliation. And for 
the last, say, 14 or 15 years, there were hundreds, if not 
thousands, of abuses that have been committed.
    Mr. Burton. Since 1987.
    Mr. Kumar. Only very few were brought to justice. Very few.
    Mr. Burton. So a member of the armed forces pretty much has 
carte blanche as far as being involved in torture, rape, or 
anything else? I mean, they have a pretty good idea that the 
chances of them being brought to justice for something like 
that is almost zero?
    Mr. Kumar. I will not go to that extent of zero. But I will 
say they will feel that the laws are protecting them. I am sure 
there are some people who were brought to justice.
    Mr. Burton. So what you would say, as a human rights 
advocate from Amnesty International and what you would like the 
world to know, is that those laws should be changed so that the 
military is held accountable when they do these atrocities 
which would send a signal that they better stop it.
    Mr. Kumar. Yes. And as a first step we would urge the 
National Human Rights Commission be given the authority to 
investigate and recommend and come publicly. The laws should be 
changed, which their State government, when it came to power 2 
years ago, basically gave that promise to the people of Kashmir 
that when they come to power they will make all these changes. 
But nothing happened. They are backtracking.
    Mr. Burton. So your message to the government of India and 
the newly elected government 2 years ago of Kashmir is let us 
get on with changing the laws and make them more just so that 
we can make sure that the military personnel who are in that 
area are held accountable for these atrocities?
    Mr. Kumar. To recommend also the straight political message 
should go as well as people should be--we have documents, we 
can give them documents.
    Mr. Burton. We will try to make sure that message is sent 
out worldwide.
    Mr. Kumar. Thank you, Mr. Chairman.
    Mr. Burton. Mr. Faleomavaega.
    Mr. Faleomavaega. Thank you, Mr. Chairman. I want to thank 
Mr. Kumar for his very eloquent statement and certainly in 
citing the facts and trying to be neutral in the process. I 
have always had a very high respect for Amnesty International 
in its efforts worldwide in reporting on human rights issues 
throughout the world.
    You indicated that these activities conducted by the Indian 
security forces is documented. Has it also been part of the 
International Human Rights Commission efforts in documenting 
the same activities from the years past?
    Mr. Kumar. The National Human Rights Commission.
    Mr. Faleomavaega. The National.
    Mr. Kumar. No. That is the main issue we are facing, the 
National Human Rights Commission's mandate being limited to 
non-armed forces. So when the armed forces are involved in 
abuses, they cannot get involved. So two areas in India that 
are being excluded from their mandate are Kashmir and northeast 
India.
    Mr. Faleomavaega. And just to kind of get a little better 
sense again, in your reporting efforts for all these past years 
about the abuses by the Indian security forces, of course you 
brought this to the attention of our State Department, our 
government, and we have made official notifications also to the 
Indian government about these atrocities or these tortures?
    Mr. Kumar. Yes. We approach the Indian government through 
different channels.
    Mr. Faleomavaega. And what has been the response?
    Mr. Kumar. Luke warm. It depends which ministry. If it is 
the Foreign Ministry will say we will do everything we can, and 
nothing happens from the Interior Home Ministry perspective.
    Mr. Faleomavaega. And what is your understanding as to why 
there seems to be a passive response on the part of the Indian 
government in really doing a comprehensive review of these 
atrocities that have been mentioned?
    Mr. Kumar. It is very difficult to judge their mindset 
whichever government that is in power, be it Congress, be it 
JPB, be it any other government, they consider this, I presume, 
this is my personal statement, not as Amnesty, it is a national 
security issue. So anything goes. Everything is fine when it 
comes to national security. The sad reality is that if people 
of India come to know what is happening in Kashmir, they will 
be a sea change because it is immediate that you have brought 
attention to what is happening there to the people of India.
    Mr. Faleomavaega. We also know, of course, that there have 
been times in different periods of the time of Prime Minister 
Nehru, Prime Minister Indira Ghandi, different policies, a more 
centralized form of government versus decentralization of the 
government, and even also in the time of Prime Minister Rajiv 
Ghandi's administration. So there has been, not to say 
consistency, but because of the differences of the leadership 
that have been elected accordingly for all these years, you get 
a different bearing in terms of what has happened. You 
indicated that we are looking at Pakistan for its human rights 
abuses of the residents living in Jammu-Kashmir.
    Mr. Kumar. In the Kashmir, yes.
    Mr. Faleomavaega. I wanted to ask you, has this been just 
as strongly advocated by Amnesty International about its 
atrocities and the militant troops?
    Mr. Kumar. Yes. We have been very critical of Pakistan as 
well. It is not to give a balance or anything. That is a 
reality.
    Mr. Faleomavaega. And I am not trying to do that.
    Mr. Kumar. No, no. I know. It is a reality on the ground. 
If Pakistan is a champion, then they better treat people under 
their control also fairly, give them equal chance of expressing 
their political will. So, no, we have been very critical. But 
there are other issues in Pakistan we always are concerned with 
as well.
    Mr. Faleomavaega. You made a comment about a political 
solution versus human rights--and I am fleshing this thing out 
in terms of your views on this--and the fact that if there is 
no political solution, then human rights as part of the 
problems is going to continue. And as my good friend the 
chairman has been saying here, I cannot agree with him more on 
tortures or rapes from anybody, whether it be from the Indian 
security forces or from the militant groups. But the fact of 
the matter is, because there is no political solution, we are 
going to continue having these very serious human rights 
problems. Recently, there seems to be a sway among the 
leadership by both Pakistan and India that it is a lot better 
not only communicating but finding a solution to their 
problems. And it seems to me that the human rights issue will I 
think just find its way in being resolved, I would think.
    But as the chairman had indicated earlier about the fact 
that, if this is giving notice publicly to the Indian 
government, that if they have known for all these years that 
the Indian security forces have committed these atrocities, why 
there has been such a passive attitude toward it, no more than 
the fact that we have given just as much notice to the 
Pakistani government for the same problems that we are faced 
with--atrocities on both sides. And so I appreciate your 
reporting of the issues at least trying to establish a sense of 
balance here.
    I recall an African proverb, Mr. Chairman, about two 
elephants fighting each other and the grass gets trodden. I 
recall that this was stated, and my cousin, who is a former 
prime minister of Western Samoa, made this remark to President 
Acrumba, who made this proverbial expression, and he said, 
``Well, Mr. President, if the two elephants make love, the 
grass still gets trodden.'' Well, we do not have elephants in 
my home, Mr. Chairman, but I just wanted to give that sense of 
proverbial expression. And you are absolutely correct, Mr. 
Kumar, it is the poor victims and the people who are caught in 
the middle simply because the two countries cannot find a 
political solution to their problems. Thank you, Mr. Chairman.
    Mr. Burton. Thank you. Do you have any comment you would 
like to make?
    Mr. Kumar. Basically, as a final statement----
    Mr. Burton. No, no. Mr. Pitts I guess will question. I just 
thought maybe you had a response.
    Mr. Kumar. No.
    Mr. Pitts. Thank you, Mr. Chairman. I have been to Azad 
Kashmir four times. I have not been permitted by the Indian 
government to go to Indian Kashmir, although I have been to 
India a couple of times and requested that. I would like to 
see, for instance, a congressional delegation go and visit both 
Pakistan and India, go to Azad Kashmir and go to India Kashmir 
and talk to all the parties involved. When I was in Azad 
Kashmir, the journalists were there, the human rights groups 
were there. Are you permitted to go to India Kashmir as Amnesty 
International? Can you as a human rights organization go there?
    Mr. Kumar. No. We do not have access to Indian Kashmir. Not 
only Kashmir, but other parts of India as well. There are 
certain parts that we have problems. And also on the Pakistani 
side, we did not ask, but we did not get the indication from 
the Pakistanis that we will be blocked from going there. But 
the Indian side, yes, we were not allowed to go there.
    Mr. Pitts. Every time I have been to Azad Kashmir, I hold a 
town meeting with the men and boys. I see the men and boys 
whose arms and legs are hacked off by the Indians and talk to 
them. Unfortunately, our government does not give aid, but I 
have reached out to NGO's who have gotten 2,000 wheelchairs and 
crutches and walkers and some little humanitarian aid to those 
IDPs there. If the United States were to provide assistance to 
the Kashmiris, what type of assistance would you suggest that 
the U.S. Government provide, No. 1.
    No. 2, if the U.S. Government were to be involved in any 
way, what role do you see them playing in helping encourage the 
peaceful dialog?
    And then third, you mentioned the use of rape as a weapon 
of terror. We heard the same report when I met with the 
Kashmiris there. What is the best way to pressure all sides to 
stop using rape as a weapon of terror, in your opinion?
    Mr. Kumar. First, coming back to your last question of 
using rape during the operations, using the rape as a weapon of 
terror may be part of it. I mentioned in my opening remarks 
that it is being used by the Indian armed forces as well as the 
armed opposition groups on the Indian side. The best way, at 
least from the Indian side, Indian government, they can bring 
people to justice, they can prosecute them, they can charge 
them, they can punish them. And give a very strong signal, not 
only to Kashmiri women but women at large in India, that Indian 
government will not tolerate this type of abuses against women. 
That is important for Indian government for their own self-
interest, not because of anything, just purely for their own 
self-interest they should have a special body to look into 
that. Now for militant groups, it is everybody's guess how to 
control them. But at least Indians can control themselves.
    The second question of a political solution, what can be 
done. We are not a political organization. But I can only 
comment that without having human rights addressed first, even 
though you can argue with the chicken and egg issue, we 
strongly believe that human rights can be addressed before a 
political solution. The reason being, India can punish their 
soldiers before a political settlement happens. It is under 
their control. They can do it today. They can initiate a 
campaign basically sending a political message and arresting 
people and punishing them. And Pakistani government also. It is 
very easy for the Pakistani government because they can just 
repeal all those laws and allow Kashmiris under their control 
to express their views and not to force them to take oaths that 
Jammu and Kashmir will be part of Pakistan. So these two 
governments can start the process without even sitting at a 
table to talk about peace or how to solve the problem. The 
armed groups are the third entity which, as I mentioned 
earlier, it is anyone's guess.
    Coming back to the aid, it is obviously the Pakistani side 
as well as Indian side you have to address separately. On the 
Pakistani side, I will say the administration can give aid to 
those IDPs or refugees, whichever term you can use because it 
is all political terms, and also that falls under these victims 
of human rights abuses. On the Indian side, it is going to be 
very tricky. We do not know how you are going to channel the 
funds to the victims there. Obviously, you can do it for 
Pandits. But I doubt even Pandits who are in refugee camps, 
even that I doubt Indian government will allow because their 
standard policy about getting into India is very strict. I 
mean, that is their policy. We are not commenting on that. They 
are taking care of thousands, if not thousands, millions of 
refugees. So they may have a reason not to allow U.N. fix here. 
But I will say when it comes to Kashmir proper, then you can 
always say that any aid to empower accountability and 
documentation of human rights can be a first step.
    I also forgot to mention about Buddhist. I mentioned about 
Sikhs, Hindus, and Muslims, they are all Kashmiris. There is 
also the Ladar population who are Buddhists. They are not 
facing the brunt of the abuses, but they are also in the 
middle, they are also getting beaten up. So by the end of the 
day, everyone, it is equal opportunity abuse that is going on 
in Kashmir by the government of India, by the militants, and by 
the Pakistanis.
    Mr. Pitts. Thank you. My time is up. I would just like to 
say, having seen the beauty and the potential of Kashmir, there 
is great potential for economic prosperity there. But until the 
issue of Kashmir is settled, the people of Kashmir will never 
realize the stability, the peace, the economic prosperity that 
they deserve. Thank you.
    Mr. Burton. Thank you, Mr. Pitts.
    Let me just ask one more question. Next to Jammu and 
Kashmir is Punjab. Do you have any kind of report on how the 
Indian troops are treating the people in the Punjab? We have 
had reports in the past over the last several years of 
comparable abuses to the Sikhs there.
    Mr. Kumar. I was not prepared to brief you on that. But 
just knowing the region, working in the region, I can tell you 
that in Punjab there is no military operations going on. It is 
over. It was over about 10 years ago. So there is no military 
operation there. There is elections. There is local police.
    Mr. Burton. But there are no military personnel in Punjab 
right now?
    Mr. Kumar. No. The only issue that we are looking at at 
this moment are past abuses that happened about 10 years ago 
with the disappearance and the accountability of the abuses 
that took place during the violent uprisings there.
    Mr. Burton. Do they have any human rights abuses that are 
taking place at the hands of law enforcement there?
    Mr. Kumar. That is common not only to Punjab, everywhere. 
And also that is common in Pakistan. So when you come to 
Pakistan and India, there are custodial deaths, that is people 
being taken into police custody, torture, rape in custody, fair 
trial issues. These are common to both India and Pakistan. So 
it is not unique to Punjab. What I mentioned earlier was unique 
to Kashmir that is happening there.
    Mr. Burton. Well we have some people here from Punjab as 
well who are going to be testifying. I just wanted to get your 
perspective on that.
    Thank you very much, Mr. Kumar. We appreciate it very much.
    Mr. Kumar. Thank you, sir. Thank you for inviting.
    Mr. Burton. The next panel is Mrs. Inayatullah testifying, 
we have Dr. Gurmit Aulakh, Mr. Selig Harrison, Dr. Fai, and Mr. 
Bob Giuda, who is the chairman of the Americans for Resolution 
of Kashmir.
    Mrs. Inayatullah is an aid worker. I would just like to say 
that she came half way around the world from Kashmir. Her 
mother passed away last Sunday. And she thought this was so 
important she actually missed her mother's funeral to be here. 
And we want to tell you how much we sympathize and appreciate 
your being here. If you could come forward and have a seat. Dr. 
Fai is the executive director of the Kashmiri American Council. 
I have known Dr. Fai for a long time. Mr. Harrison is the 
director of the Asia Program for the Center for International 
Policy. And Dr. Aulakh is the president of the Council of 
Khalistan.
    Would you all please stand so I can have you sworn in.
    [Witnesses sworn.]
    Mr. Burton. I think because Mrs. Inayatullah came in spite 
of the personal loss that she suffered, I think I will show her 
a little bit more respect than my other witnesses and ask her 
to go ahead and testify first. And I am very sorry to hear 
about your mother.

  STATEMENTS OF ATTIYA INAYATULLAH, AID WORKER; GURMIT SINGH 
   AULAKH, PRESIDENT, COUNCIL OF KHALISTAN; GHULAM-NABI FAI, 
EXECUTIVE DIRECTOR, KASHMIRI AMERICAN COUNCIL; SELIG HARRISON, 
DIRECTOR OF THE ASIA PROGRAM, CENTER FOR INTERNATIONAL POLICY; 
  AND BOB GIUDA, CHAIRMAN, AMERICANS FOR RESOLUTION OF KASHMIR

    Mrs. Inayatullah. Thank you, sir. Honorable House of 
Representatives, I testify before you because I have confidence 
in the legislative government of USA. It listens intently and, 
more importantly, it responds justly.
    I, a daughter of Kashmir, who is fortunate to be yet able 
to breath the air of freedom, call out to you on behalf of the 
trapped 3.5 million heroic Kashmiri mothers, daughters, and 
sisters for protection--protection from the most gruesome and 
blatant violation of human rights in contemporary history by 
700,000 Indian security forces. Since 1989 and as of January 
2004, the orphaned count, which you have mentioned, is 105,210; 
women, from the small age of 7 to 70, have been abused, 
molested, raped, and the count is 9,297; and another 21,826 are 
reported widows; and, regrettably, the huge number viewed to 
have been sexually incapacitated through torture and disabled 
for life, there is no count.
    As for violation of women, as has already been mentioned, 
rape in Indian held Kashmir is used as a type of tool of war. 
The NGO Committee for Initiative on Kashmir, New Delhi, 
reports: ``Of all the atrocities committed by the security 
forces, the treatment of Kashmiri women has embittered the 
people of the valley the most.'' The alienation, sir, if I may 
say so, is complete due to this.
    In my first person testimonies with women who wish to 
remain anonymous, the narrated atrocities are grotesque--hung 
naked from trees, breasts lacerated with knives, whilst gang 
rape in front of the family was reported to be common practice. 
A young woman, Zerifa, in a refugee camp in Muzzafarabad, no 
longer speaks, her aunt recounts how she was mercilessly gang 
raped in paddy fields. Another young woman said to me, ``Give 
me training so I can kill the men who raped me.'' A pregnant 
women who during a cordon and search was kicked in the stomach 
by security forces, resulting in a miscarriage and death.
    Yes, Honorable House of Representatives, protectors have 
become predators. This inhuman impulse of army personnel in 
India's militarized Kashmir must stop because we know a 
military solution is not the solution. We must heed to the 
findings of the Human Rights Watch World Report which says, 
``Respect for human rights must be at the center of any effort 
to resolve the conflict,'' which we have been talking about. 
Indeed, the only way to stop human rights violations is a just 
and durable solution of Kashmir based on U.N. resolutions and 
the wishes and aspirations of Kashmiri people.
    You, Honorable Members, know more so than any how important 
it is to have peace in the geo-political situation. The agony 
of my people has been summed up in eight words by Asia Watch: 
``There is a human rights disaster in Kashmir.'' Women in 
Indian occupation reach out to you, the House of 
Representatives, to facilitate a mechanism through which legal, 
social, and physical relief is provided to widows and to 
mothers, relatives of political prisoners, of the disappeared, 
and the assassinated. I ask, in this land of Jefferson and 
Lincoln, why has freedom been denied to the Kashmiris? Freedom 
has been illusive, and I say this as an answer for Kashmiris: 
Because it has been treated too long as a territorial dispute 
between India and Pakistan.
    Today, as the two countries talk peace and engage in CBMs, 
you, Honorable Members, can help them do it right. If ever a 
CBM was needed, it is needed in the disputed territory of 
Kashmir. I suggest that together the governments of India and 
Pakistan, through the United Nations, must effectively engage 
in protection of orphans, widows, women in distress, and the 
incapacitated youth. Because, Honorable Members, the key to 
India and Pakistan making progress toward a political solution 
lies in the joint provision of humanitarian assistance to the 
victims of the many atrocities.
    Sir, the world must know that whilst Kashmir is awash with 
every form of human abuse and brutalities of state terrorism 
coupled with coercive diplomacy, the Indian government 
unabashedly is exploiting the phenomena of global war against 
terrorism. The use of buzz words like ``cross-border 
terrorism'' must not, cannot hide India's guilt for over 80,000 
graves in Indian held Kashmir.
    Honorable Members, there is a humanitarian emergency in 
Indian held Kashmir. We need action and we need it today. I 
leave the devastated hearts, the tortured minds, the innocent 
souls of the valley in your care knowing that you who represent 
the American people do not turn and walk away. Thank you, sir.
    [The prepared statement of Mrs. Inayatullah follows:]
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Mr. Burton. Thank you. We will certainly take to heart what 
you said and do everything we can to bring about a resolution. 
My heart goes out to all the people who have suffered over 
there.
    My good friend, Dr. Aulakh.
    Mr. Aulakh. Mr. Chairman, thank you for the opportunity to 
discuss the lack of human rights India for Sikhs and other 
minorities today. The written report that I have submitted and 
the supporting documentation will give you additional 
information on the matters I am discussing today.
    Human rights violations are wide spread in India. Amnesty 
International has not been allowed to visit Punjab since 1978. 
Even the repressive Cuban regime has allowed Amnesty 
International into the country more recently.
    The reality is that India is a Hindu theocracy, not the 
democracy it claims to be. The leaders are militant Hindu 
nationalists associated with Rashtriya Swayamesewak Sangh, RSS, 
a pro-Fascist organization. The government maintains a policy 
called Hindutva, a total Hinduization and Hindu control of 
every aspect of political, religious, social, and civil life in 
India. A senior leader of the ruling party was quoted as saying 
that everyone who lives in India must either be a Hindu or 
subservient to Hindus. A cabinet minister was quoted as saying 
that Pakistan should be absorbed into India.
    The Indian government policy of Hindutva is a policy of 
elimination of minorities such as the Sikhs. An army commander 
in Amritsar district threatened that he would murder the Sikh 
men, bring the women to the army barracks, and produce a new 
generation of Sikhs. Mr. Chairman, this is disgraceful and 
extremely insulting to the proud Sikhs. It is unbecoming of an 
army commander of a nation which claims to be the world's 
largest democracy.
    According to the figures compiled by the Punjab State 
Magistracy, which represents the judiciary of Punjab, and human 
rights groups, over a quarter of a million, over 250,000 Sikhs 
have been murdered by the Indian government since 1984. They 
join over 300,000 Christians in Nagaland who have been killed 
by the Indian regime since 1947, as well as more than 85,000 
Kashmiri Muslims who have been killed since 1988, and tens of 
thousands of other minorities.
    Amnesty International reported in February that at least 
100 individuals, including social activists, human rights 
defenders, and lawyers, were currently being tortured in 
Punjab. The report by the Movement Against State Repression 
shows that India admitted to holding 52,268 Sikhs as political 
prisoners. They are held without charge or trial, some of them 
since 1984. Why does a democratic state hold tens of thousands 
of political prisoners, Mr. Chairman? Why does a democracy pay 
bounties to police officers to kill minorities? Why does a 
democracy need a Movement Against State Repression?
    According to the February 17 issue of the Tribune of 
Chandigarh, a Sikh named Gurnihal Singh Pirzada, who was a high 
official of the Indian Administrative Service, was released 
from jail claiming that his fundamental right to liberty was 
violated. He was arrested after allegedly being seen at a 
meeting of gathering of Punjab dissidents. Pirzada denies 
attending such a meeting, but points out that it would not be 
illegal if he did.
    In June 1984, the Indian government brutally invaded the 
Golden Temple and 150 other Gurdwaras around Punjab. Over 
20,000 people were killed in these attacks, including the Sikh 
leader Sant Jarnail Singh Bhrindranwale, who was the strongest 
spokesman for Sikh rights and Sikh freedom. More than 100 young 
boys, ages 8 to 12, were taken outside into the courtyard of 
the Golden Temple and asked whether they supported Khalistan, 
the independent Sikh homeland. When they answered with the Sikh 
religious incantation ``Bole So Nihal,'' they were summarily 
shot to death. The Guru Granth Sahib, the Sikh holy scripture, 
handwritten in the times of Sikh Gurus, was shot full of bullet 
holes by the Indian military.
    In 1995, the Human Rights Wing, under the leadership of 
Sadar Jaswant Singh Khalra, found that the Indian government 
has a policy of arresting Sikhs, often innocent ones, then 
torturing them, murdering them, declaring their bodies 
``unidentified'' and secretly cremating them without even 
notifying the families. Mr. Khalra concluded that at least 
15,000 Sikhs have been made to disappear this way. The followup 
to his effort places the number around 50,000. Mr. Khalra was 
arrested by Punjab police on September 6, 1995, and killed in 
police custody about 6 weeks later. His body was never given to 
his family. No one has ever been brought to justice for the 
Khalra murder.
    Sadar Gurdev Singh Kaunke, who was Jathedar of the Akal 
Takht, the highest Sikh religious position, was murdered by 
senior superintendent of police Swaran Singh Ghotna. He has 
never been punished for this crime.
    Unfortunately, Sikhs are not the only victim of India's 
brutal tyranny. Australian missionary Graham Staines and his 
two sons were brutally murdered by being burned to death while 
they slept in their jeep by a mob of Hindu militants affiliated 
with the militant, pro-Fascist Rashtriya Swayamsewak Sangh, 
RSS, who chanted, ``Victory to Hannuman,'' a Hindu god. An 
American missionary from Pennsylvania, Joseph Cooper, was 
expelled from the country after being so severely beaten by RSS 
goons that he had to spend a week in the hospital. In January 
2003, an American missionary and seven other individuals were 
attacked by RSS-affiliated Hindu militants. RSS-affiliated 
gangs have raped nuns, murdered priests, burned churches. 
Christian schools and prayer halls have been attacked and 
destroyed. A Christian religious festival was broken up by 
police gunfire. Church staff have been harassed. Church events 
have been disrupted. And yet India continues to claim it is 
secular and democratic.
    Both Prime Minister Vajpayee and Deputy Prime Minister L.K. 
Advani are members of RSS and neither has ever repudiated the 
Hindu fundamentalist ideology.
    In March 2002, between 2,000 and 5,000 Muslims were 
brutally murdered by RSS-affiliated mobs in Gujarat. According 
to the U.S. Commission on International Religious Freedom, 
``Hundred of mosques and Muslim-owned businesses and other 
kinds of infrastructure were looted or destroyed.'' The 
Commission reports that ``Many Muslims were burned to death, 
others were stabbed or shot. India's National Human Rights 
Commission, and official body, found evidence in the killings 
of premeditation by members of Hindu extremist groups; 
complicity by Gujarat state officials; and police inaction in 
the midst of attacks on Muslims.'' A police officer confirmed 
to an Indian newspaper that the massacre was pre-planned by the 
government.
    Gujarat, Tamil Nadu, and Orissa have all passed bills 
barring religious conversions. These bills are targeted against 
the conversions of Hindus to Christianity and other religions. 
Yet Hindu mobs have forcibly converted lower-caste individuals 
to Hinduism and no action is taken.
    India has never been one country. It has 18 official 
languages. There was no such entity as India until the British 
conquered the subcontinent and threw it together for their own 
administrative convenience. History tells us that such 
multinational states are doomed to fall apart.
    Sikhs ruled an independent Punjab from 1710 to 1716 and 
again from 1765 until the British conquest of the subcontinent 
in 1849. The Sikhs have never accepted the Indian constitution. 
When the Indian constitution was adopted in 1950, no Sikh 
representative signed it, and no Sikh representative has signed 
it to this day.
    On October 7, 1987, Sikhs declared independence from India, 
naming their new country Khalistan. Yet India insists that 
Punjab Khalistan is an integral part of India. Only a free 
Khalistan will stop India's repression of Sikhs. Only 
independence for all nations and peoples of South Asia will 
bring freedom, dignity, stability, prosperity, and peace to the 
region. The cornerstone of democracy is self-determination.
    Mr. Chairman, there are measures that America can take to 
help end the repression of Sikhs, Christians, Muslims, and 
other minorities in India and to support the cause of freedom 
in the subcontinent. Cutting off U.S. aid to India would be a 
good start. Why should American tax dollars go to support the 
brutal, repressive, theocratic regime I have described, 
especially when a British documentary called ``Nuclear India'' 
show that India spends 25 percent of its development budget on 
its nuclear program and only 2 percent, just 2 percent each on 
health and education? All that U.S. aid does is provide 
additional resources with which to carry out the repression of 
minorities. In addition, America should support democracy in 
South Asia in the form of a free and fair plebiscite under 
international monitoring on the question of independence in 
Punjab, Khalistan, in Kashmir, in Christian Nagaland, and 
wherever the people are seeking freedom.
    Mr. Chairman, I would like to thank you, the members of the 
subcommittee, and other Members of the Congress who are 
attending for this opportunity. I respectfully urge you to 
support freedom for all the minority nations of South Asia as 
the only way to end the repression and secure full human rights 
for everyone in that troubled region. Thank you very much.
    [The prepared statement of Mr. Aulakh follows:]
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Mr. Burton. Thank you, Dr. Aulakh.
    Mr. Harrison.
    Mr. Harrison. Chairman Burton, members of the subcommittee, 
I greatly appreciate your invitation to testify here today. I 
have studied Kashmir for 53 years as a journalist and as a 
scholar, and never before in that half century has there been a 
more promising opportunity for peace in South Asia and for the 
reduction of tensions in Kashmir.
    The people of Kashmir are trapped in the cross-fire between 
India and Pakistan. War inevitably breeds human rights abuses, 
as we ourselves learned in Vietnam and as we are now re-
learning in Iraq. The only way to end the human rights abuses 
that have been committed by both India and Pakistan in Kashmir 
is to move the peace process forward.
    I am going to begin by underlining the hard reality that 
both India and Pakistan have been guilty of human rights abuses 
in Kashmir. We will not help the people of Kashmir if all we do 
today is engage in India-bashing or Pakistan-bashing.
    The insurgency in Kashmir began in 1987 after the ruling 
party in India at that time interfered in the state elections. 
Pakistan, under General Zia Ul Haq, saw a golden opportunity to 
destabilize Kashmir and began to support both the Kashmir 
insurgency and the Khalistan movement, to which we have just 
heard reference.
    Pakistan was at that time awash with American weapons and 
money that we provided for the Afghan struggle against the 
Russians in Afghanistan. The Interservices Intelligence [ISI] 
in Pakistan began to use those weapons and that money as well 
as U.S.-trained Islamic fundamentalist Afghan resistance 
fighters to escalate the insurgency in Kashmir. Elements allied 
with Al Qaeda were among the foreign fighters who poured into 
Kashmir to help the Kashmiri insurgents. India reacted to this 
challenge by building up an inflated military and paramilitary 
forces in Kashmir that have pursued repressive tactics and have 
committed many well-documented atrocities.
    Gradually the Kashmiri fighters have lost the leadership of 
the fighting in Kashmir to Pakistan, Afghan, and other foreign 
Islamic extremist fighters sponsored by the Pakistani ISI. 
Among the worst human rights abuses committed by Pakistani-
sponsored Islamic militant groups in Kashmir has been the 
ethnic cleansing of Kashmiri Hindus, to which reference has 
been made several times this morning. Ninety-five percent of 
the Hindus in the Kashmir Valley have been driven to seek 
refuge in Jammu and New Delhi, as the 2001 State Department 
Human Rights Report confirms.
    Pakistan has systematically attempted to undermine or 
assassinate moderate Kashmiri leaders who have favored a cease-
fire with India and participation in state elections. The 
principal insurgent group consisting mainly of Kashmiris is the 
Hizbul Mujahidin. Like all of the insurgent groups, it has 
relied on Pakistani aid. In July 2000, Hizbul Mujahidin offered 
to conclude a cease-fire but within days the ISI pulled the 
reins and Hizbul was forced to renege on its offer. In 2002, 
when preparations for state elections were underway, a 
prominent Kashmiri moderate who advocated participation in the 
elections, Abdul Ghani Lone, was assassinated by groups linked 
closely with the ISI. During the elections and as recently as 1 
month ago, Mahbooba Mufti, a leading moderate, has been the 
target of ISI-sponsored assassination attempts.
    Despite the atmosphere of fear promoted by Pakistan as a 
deliberate policy in Kashmir, 22 of the 27 leaders of the 
Hurriyat, a grouping of insurgent Kashmiri leaders, has engaged 
in talks with Indian Deputy Prime Minister Advani on January 20 
and March 27. Another round, a very important occasion, will be 
held in June.
    The principal grievances raised by the Kashmiris raised in 
those talks relate to the political prisoners, the lack of 
accountability concerning the identity of Indian held Kashmiri 
prisoners, their indefinite detention, and allegedly in some 
cases their execution and unaccounted deaths while in custody. 
There is clearly a need for a review of Kashmiri political 
prisoners. India has promised action on these grievances but 
has yet to deliver. Prompt action is an essential precondition 
for the June talks to make progress. In the case of Pakistan, 
prompt action is needed to get its surrogate groups to 
negotiate a cease-fire in Kashmir. This is essential to defuse 
the climate that leads to human rights abuses.
    Mr. Burton. Mr. Harrison, just 1 second please. We have 
five votes on the floor, which means that we will be gone for 
about an hour. So what I would like to do is have you sum up so 
we could hear from Dr. Fai and Mr. Giuda before we leave. So if 
you could sum up, we would really appreciate it.
    Mr. Harrison. Pakistan must terminate ISI sponsorship of 
the insurgency and dismantle its infrastructure for the support 
of cross-border infiltration by Islamic extremist groups. If it 
refuses to do so, I am afraid the peace process is likely to 
break down.
    Pakistan's intentions to honor the peace process in Kashmir 
have not been tested because the snows in the Himalayas prevent 
significant cross-border infiltration. The test will be what 
happens when the snows melt.
    Skipping to the end, sir. What can the United States do? I 
am sure you want that. President Bush promised General Pervez 
Musharraf $3 billion in economic and military aid at Camp 
David. If we are interested in human rights in Kashmir, this 
aid should clearly be conditioned on Pakistan's termination of 
support for the Kashmiri insurgents. Second, the United States 
should encourage World Bank and Asian Development Bank aid for 
key economic development programs in Kashmir. Finally, at the 
political level, in conclusion, the United States should make 
clear that it views the Line of Control as the eventual 
international boundary in Kashmir. This is necessary to make 
clear to Pakistan that there is no hope for internationalizing 
the dispute. As long as that hope remains alive in Pakistan, 
the Islamic extremist forces in Pakistan will push General 
Musharraf to keep the pot boiling in Kashmir, and that would 
mean a never-ending human rights tragedy. Thank you.
    [The prepared statement of Mr. Harrison follows:]
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Mr. Burton. Thank you, Mr. Harrison.
    Dr. Fai.
    Mr. Fai. Thank you, Mr. Chairman. Mr. Chairman and 
distinguished members of the subcommittee, I am grateful for 
the opportunity to share my thoughts about the human rights 
situation in the disputed state of Jammu and Kashmir.
    I do believe in the universality of human rights, the 
universality of human aspirations, and I do believe in the 
universality of peace and prosperity. That is why, Mr. 
Chairman, I would like to express my deep appreciation for the 
latest peace initiative between Prime Minister Vajpayee of 
India and President Musharraf of Pakistan. Prime Minister 
Vajpayee has maintained that the conflict between India and 
Pakistan was fundamentally to the controversy over Kashmir. He 
is on record to have said that the settlement of Kashmir 
conflict does not need to be within the constitution of India 
but it could be within the parameters of ``insiniya,'' that is, 
humanity. The reciprocity shown by President Musharraf was 
equally optimistic when he said: ``The victory would be neither 
mine nor Prime Minister Vajpayee's. It would be victory of 
negotiations and dialog.''
    Mr. Chairman, peace and justice in Kashmir are achievable 
if all parties to the conflict--the government of India, the 
government of Pakistan, and the people of Kashmir--make some 
concessions. Each party will have to modify its position so 
that the common ground is found. It is almost impossible to 
find a solution of the Kashmir problem that respects all the 
duties of India, the values all the sentiments of Pakistan, and 
that keeps intact the unity of the state of Jammu and Kashmir. 
Yet that does not mean that we cannot find a workable solution 
of the Kashmir problem. Yes, we can find it, but it demands 
sacrifices, modifications, and the flexibility by all parties 
to the dispute.
    Mr. Chairman, despite this new peace initiative in South 
Asia, unfortunately, the human rights situation in occupied 
Kashmir has not changed. It remains alarming and very much 
disturbing. A massive campaign of brutal force has been 
launched by Indian army against the people of Kashmir since the 
beginning of 1990. Various estimates are given of the death 
toll of civilians. So far, the figure runs into tens of 
thousands. Countless individuals have been maimed, and 
thousands of women molested and humiliated. More than 100,000 
Kashmiri Hindus who are known as Pandits have been uprooted 
under deep conspiracy of Governor Judmujan, who was then the 
Governor of the state of Jammu and Kashmir. An international 
impartial agency must investigate the tragedy of the Kashmiri 
Pandits.
    The most baffling phenomenon, Mr. Chairman, regarding the 
situation in Kashmir is that it has been allowed to arise and 
to persist in a state which, under international law, does not 
belong to any member state of the United Nations and whose 
status is yet to be decided by the people of that land. It is 
interesting to note that when the Kashmir dispute erupted in 
1947, the United States upheld the stand that the future of 
Kashmir must be decided by the will of the people and that 
their wishes be ascertained under the supervision and the 
control of the United Nations. The United States was a 
principal sponsor of the resolution of the Security Council 
which was adopted on April 21, 1948 and which was based on that 
unchallenged principle.
    Mr. Chairman, let it be known to everybody that Kashmir is 
not an integral part of either India or Pakistan. Because under 
all international agreements which were agreed upon by both 
India and Pakistan, which were negotiated by the United 
Nations, they were endorsed by the Security Council, and 
accepted by the international community, Kashmir does not 
belong to any member state of the United Nations. If that is 
true, Mr. Chairman, then the claim that Kashmir is an integral 
part of India does not stand. And if Kashmir is not an integral 
part of India, then how can Kashmiris secede from a country 
like India to which they have never acceded to in the first 
place?
    Finally, Mr. Chairman, I believe that future negotiations 
between India and Pakistan can be meaningful and successful if 
all parties concerned--that is the government of India, the 
government of Pakistan, and the Kashmiri leadership--take the 
very first step, and that very first step is that there has to 
be a cease-fire from all sides and that must be followed by 
negotiations. The negotiations should be initiated at four 
different levels: one, an intro-Kashmir dialog between the 
leadership of All Parties Hurriyet Conference, and the 
leadership of Buddhists, Sikhs, and the Pandits; two, talks 
between the government of India and Pakistan, which has just 
started; three talks between the government of India and the 
Kashmiri leadership, which has also started but that needs to 
be expanded, the government of India needs to understand that 
any agreement between the government of India and the Kashmiri 
leadership without a Syed Ali Geelani, Mohammad Yasin Malik, 
and Shabir Ahmed Shah does not mean anything; and four, 
tripartite talks between India, Pakistan, and genuine 
leadership of the Kashmiri people.
    The reason, Mr. Chairman, the talks must be tripartite is 
that the dispute involves three parties--India, Pakistan, and 
the people of Kashmir. But the primary party is the people of 
Kashmir, because it is ultimately their future, the future of 
13 million people of Kashmir that is yet to be decided. If 
India and Pakistan will try to settle the issue of Kashmir by 
themselves, they will be performing Hamlet without the Prince 
of Denmark. I thank you, Mr. Chairman.
    [The prepared statement of Mr. Fai follows:]
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Mr. Burton. Thank you, Dr. Fai.
    Victor Giuda.
    Mr. Giuda. Mr. Chairman and members of the committee, let 
me preface my remarks by saying that they are colored by the 
repeated refusals of the government of India and its embassies 
to respond to my request to visit Azad Kashmir, similar to 
Congressman Pitts. For the record, my name is Robert Giuda. I 
am a 1975 graduate of the U.S. Naval Academy, former officer of 
Marines, former Special Agent of the FBI, and Deputy Majority 
Leader of the New Hampshire House of Representatives. I am also 
founder and chairman of Americans for Resolution of Kashmir.
    Kashmir is classified by the U.N. as a ``disputed 
territory.'' It lies within what is arguably the most dangerous 
region in the world, where the confluence of religious, ethnic, 
political, military, and economic factors affords every 
conceivable basis for violent conflict. Over the past 57 years, 
India and Pakistan have fought two major wars, numerous lesser 
battles, and engaged in a near-nuclear exchange just 2 years 
ago. Kashmir today is home to the largest concentration of 
ground forces on Earth since the Second World War; 700,000 
troops and para-militaries--half of India's standing army--are 
garrisoned among IOK's 8 million people. This equates to 1 
armed combatant for every 11 civilians. Pakistan maintains 
95,000 troops among its 5 million inhabitants in Azad, Kashmir, 
about 1 combatant for every 500 civilians.
    Every day, unspeakable atrocities occur at the hands of 
India's army of occupation. Even as it proclaims to the world 
its desire to reach a political solution to the conflict, 
Indian law today immunizes its army and police forces from 
prosecution for actions committed under color of ``prevention 
of terrorism,'' enabling a hideous government-sanctioned 
repertoire of torture, rape, murder, arson, and custodial 
killing. Pakistan allows U.N. observers and human rights 
organizations unfettered access to Free Kashmir, while India 
denies access to substantial portions of IOK. One must ask 
oneself, why are no observers allowed? What is India hiding?
    India began its occupation of Kashmir by invading it in 
1947, that included the airlift of troops from Delhi to 
Srinagar, as documented in Alister Land's books. During the 
past 15 years, with statutory immunity, the Indian army has 
killed 2 percent of Kashmir's mostly Muslim male population, 
raped some 9,000 Kashmiri women, orphaned more than 100,000 
Kashmiri Muslim children. When considered in the aggregate, 
these actions, committed by the Indian military with the full 
knowledge of the highest levels of the Indian government, 
comprise genocide against Kashmiri Muslims, and are chargeable 
both as war crimes and as crimes against humanity.
    This murderous paradigm--military brutality, immunity from 
prosecution, and denial of access to a free press--is anathema 
to the rule of law, and lethal to the advancement of human 
rights, regardless of political outcomes.
    India cleverly deflects attention from its actions in 
Kashmir by claiming that the Kashmiri insurgency is really 
Muslim-incited cross border terrorism supported by Pakistan. 
There is some element of truth in that, but the element is 
overshadowed by the economies of scale in the torture, rape, 
arson, and murder committed by the respective parties. My 
lengthy personal discussions with President Musharraf indicate 
that he is committed to the end of insurgency across the border 
in Pakistan into Kashmir. India's success with this charade of 
cross-border terrorism depends on public ignorance of the 
exemption of indigenous freedom struggles from the U.N. 
definition of ``terrorism.'' I submit to you that Kashmiri 
resistance to Indian repression is little different than the 
resistance of American colonists to British occupation during 
our War of Independence. I assure, however, that the British 
never committed such atrocities as are part of daily life in 
Kashmir.
    In July 1999, a U.S. House committee voted to reject the 
concept of a plebiscite in Kashmir, this despite the 1948 
resolution championed by the United States, signed by India and 
Pakistan, and reiterated in four subsequent Security Council 
resolutions. That vote, denying the right of the indigenous 
people of a former nation-state to determine their own future, 
is utterly inconsistent with America's demonstrated commitment 
to human rights. Even as United States and coalition forces 
fight today to restore freedom in Iraq, I ask the committee to 
bring forth a resolution reaffirming the right of self-
determination for the people of Kashmir. I ask you to stand 
strong in support of human rights without regard to race, 
creed, gender, or national origin.
    Enormous economic benefits will flow from such an 
affirmation. Leaders of the 350 major U.S. corporations doing 
business in India and Pakistan today will attest that the 
future of South Asia, with one-quarter of the world's 
population, remains inextricably intertwined with the future of 
Kashmir. The peace dividend that would accrue from resolving 
this blood conflict would enable India and Pakistan to reduce 
their burgeoning defense budgets and to invest those funds 
instead in desperately needed health and education reforms.
    One fundamental principle is essential to resolving the 
conflict in Kashmir. That is the principle of self-
determination, upon which our own United States was founded, 
and for which the blood of Americans has been shed and 
continues to be shed around the globe. Honorable Members of the 
committee, Mr. Chairman, we cannot allow subterfuge to 
undermine America's commitment to human rights. Yesterday I 
walked quietly among the graves of thousands of men and women 
in Arlington National Cemetery who gave their lives in defense 
of human rights both here and abroad. The silence of their 
repose provides unimpeachable testimony to America's unwavering 
opposition to tyranny and despotism. Does not the magnitude of 
their sacrifice compel us here today to advance the cause of 
human rights at every opportunity? And does that not include 
the people of Kashmir? I ask you, if not us, who? And if not 
now, when?
    I thank you and will accept any questions.
    [The prepared statement of Mr. Giuda follows:]
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Mr. Burton. Thank you, Representative Giuda. We appreciate 
your being patient with us. I know you wanted us to have this 
hearing earlier. But we, as I said, we acceded to the wishes of 
the State Department because of the pending elections over 
there.
    Let me just say to all of you, I appreciate very much, and 
I am sure everybody on the committee appreciates as well, your 
testimony. One of the things that we will try to work very hard 
to accomplish is to get the eyes and the ears of the world into 
Kashmir so that everybody can see what is going on, from the 
Indian troops as well as the militants that are fighting to try 
to get their view held in Kashmir. And the best way to make 
sure that the world knows is to get organizations like Amnesty 
International in there and the U.N. human rights organizations. 
It is unfortunate that the Indian government has not allowed 
them to be there.
    Mr. Harrison said this should not be a forum for India-
bashing. I agree that we should not be bashing anybody at this 
point. However, the atrocities are factual, the rapes are 
matters of fact, the tortures are a matter of fact, and the 
vast preponderance of those problems have originated with the 
military in India--I see Mr. Harrison shaking his head--but we 
have been studying this issue for a long, long time, and I know 
he has a different point of view. And we know that the 
Pakistani government and the militants have been involved in 
some major problems as well.
    So all I can say is that we will do everything that we can 
to see that the peace negotiations between India-Pakistan 
include Kashmiris, and that we see the eyes and the ears of the 
world focused on this, not only from an external standpoint but 
from an internal standpoint. If we could get inside and 
actually see what is going on in Kashmir on a daily basis, then 
I think you would see the atrocities start to cease because you 
cannot stand up to world scrutiny very long.
    In addition to that, I would like to see, and I think the 
committee would like to see, whether they are for or against 
our position on India and Kashmir and Punjab, we would like to 
see the laws that protect military personnel from prosecution 
for atrocities repealed. Everybody should be held up to the 
same standard--and that is, if somebody violates the human 
rights of another individual, whether it is here, in Iraq, in 
Kashmir, in Punjab, or wherever it happens to be, that they are 
held to the same standard and they are brought to justice. That 
is the only way you can eliminate these sorts of things from 
happening. And so we will continue to push forward to make sure 
that happens. It may take a while. But you may rest assured 
that your testimony has been a giant step forward. As you can 
see, the media of the world has been here to cover it and I am 
sure it will be reported around the world.
    I want to thank you very much for your patience and for 
being here today. Thank you very much.
    We stand adjourned.
    [Whereupon, at 12:22 p.m., the subcommittee was adjourned, 
to reconvene at the call of the Chair.]
    [The prepared statements of Hon. Ileana Ros-Lehtinen, Hon. 
Frank Pallone, and Hon. Joe Wilson follow:]

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

                                 <all>

</pre></body></html>
